<html>
<title> - ADVANCING U.S. INTERESTS IN THE WESTERN HEMISPHERE</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                    ADVANCING U.S. INTERESTS IN THE 
                           WESTERN HEMISPHERE

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 11, 2018

                               __________

                           Serial No. 115-153

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]      


      Available: http://www.foreignaffairs.house.gov/, http://docs.house.gov, 

                      or http://www.gpo.gov/fdsys/

                                                               
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
30-707PDF                  WASHINGTON : 2018                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f99e8996b99a8c8a8d919c9589d79a9694d7">[email&#160;protected]</a>                                 
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                LOIS FRANKEL, Florida
SCOTT PERRY, Pennsylvania            TULSI GABBARD, Hawaii
RON DeSANTIS, Florida                JOAQUIN CASTRO, Texas
MARK MEADOWS, North Carolina         ROBIN L. KELLY, Illinois
TED S. YOHO, Florida                 BRENDAN F. BOYLE, Pennsylvania
ADAM KINZINGER, Illinois             DINA TITUS, Nevada
LEE M. ZELDIN, New York              NORMA J. TORRES, California
DANIEL M. DONOVAN, Jr., New York     BRADLEY SCOTT SCHNEIDER, Illinois
F. JAMES SENSENBRENNER, Jr.,         THOMAS R. SUOZZI, New York
    Wisconsin                        ADRIANO ESPAILLAT, New York
ANN WAGNER, Missouri                 TED LIEU, California
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia
JOHN R. CURTIS, Utah

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                           
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Kenneth H. Merten, Acting Principal Deputy 
  Assistant Secretary, Bureau of Western Hemisphere Affairs, U.S. 
  Department of State............................................     4
Ms. Sarah-Ann Lynch, Senior Deputy Assistant Administrator, 
  Bureau for Latin America and the Caribbean, U.S. Agency for 
  International Development......................................    12

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Kenneth H. Merten: Prepared statement..............     7
Ms. Sarah-Ann Lynch: Prepared statement..........................    14

                                APPENDIX

Hearing notice...................................................    60
Hearing minutes..................................................    61
The Honorable Eliot L. Engel, a Representative in Congress from 
  the State of New York:
  Washington Post article dated July 6, 2018.....................    63
  Letter to Centers for Disease Control and Prevention and the 
    National Institutes of Health dated December 4, 2017.........    65
  Washington Post Letters to the Editor Opinion..................    66
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    67
The Honorable Norma J. Torres, a Representative in Congress from 
  the State of California: Prepared statement....................    68
Written responses from the Honorable Kenneth H. Merten to 
  questions submitted for the record by:
  The Honorable Edward R. Royce, a Representative in Congress 
    from the State of California, and chairman, Committee on 
    Foreign Affairs..............................................    70
  The Honorable Eliot L. Engel...................................    71
  The Honorable Paul Cook, a Representative in Congress from the 
    State of California..........................................    82
  The Honorable Brad Sherman, a Representative in Congress from 
    the State of California......................................    87
  The Honorable F. James Sensenbrenner, Jr., a Representative in 
    Congress from the State of Wisconsin.........................    89
  The Honorable Joaquin Castro, a Representative in Congress from 
    the State of Texas...........................................    90
  The Honorable Norma J. Torres..................................    95

 
           ADVANCING U.S. INTERESTS IN THE WESTERN HEMISPHERE

                              ----------                              


                        WEDNESDAY, JULY 11, 2018

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 10:08 a.m., in 
room 2172, Rayburn House Office Building, Hon. Ed Royce 
(chairman of the committee) presiding.
    Chairman Royce. We will call this hearing to order. Today 
we look at U.S. policy toward Latin America and the Caribbean. 
Our relationships in the Western Hemisphere are forged by deep 
cultural and economic ties. We export a lot of goods to the 
Caribbean, and that supports many U.S. jobs. Across Latin 
America, our trade ties are just as strong. But today, as the 
region faces urgent challenges and transitions, the United 
States must be more engaged than ever.
    As always, the safety of Americans serving abroad is a top 
priority for this committee. The still unexplained attacks on 
Embassy personnel in Havana, and now in China, are very 
disturbing. Twenty-six Americans have been medically evacuated 
from Havana with serious symptoms, including sharp ear pain, 
headaches, vertigo and other conditions consistent with brain 
injury or concussion. Canadians have been impacted, as well. We 
need to know what happened, who is responsible, and how to 
respond.
    The administration is actively addressing the Western 
Hemisphere's major crisis starting with Venezuela. The United 
States has repeatedly condemned the illegitimate election of 
President Maduro as well as the human rights abuses and 
economic meltdown unfolding there.
    The administration has rightly deployed targeted sanctions 
hitting Venezuelan officials responsible for this catastrophe, 
not the suffering Venezuelan people, is the way to go. The 
Vice-President has traveled to the region three times to urge 
regional leaders to do more for the Venezuelan people.
    In Nicaragua, the administration has rightly designated 
three top officials for human rights abuses and for corruption. 
But we should do more to support the Nicaraguan people. The 
repressive Ortega regime has killed more than 200 advocates for 
free and fair elections since this April. One of the civilians 
murdered on a village street was a former neighbor of an Orange 
County friend of mine. Subcommittee Chairman Paul Cook will 
convene a hearing to further examine this matter tomorrow.
    Across the hemisphere, transnational criminal organizations 
continue to pose a major threat. These violent gangs are 
fueling the drug and migration crisis that the United States 
struggles with today. As we fight the deadly impacts of opioids 
in our communities, we must continue working closely with our 
regional neighbors to increase counternarcotics cooperation. 
The recent increase in cocaine production in Colombia is 
unacceptable, and I am hopeful that the election of President 
Ivan Duque is a sign that the country will redouble efforts to 
confront gangs and the cartels.
    This committee continues to support U.S. efforts to work 
with the countries of Central America's Northern Triangle, El 
Salvador, Honduras, and Guatemala, to help shore up 
institutions, combat crime, and combat corruption, and create 
conditions that will keep people from migrating north. I agree 
with the administration that combating corruption in the region 
must be a key part of the strategy to create opportunity and 
stability. The committee will continue to support assistance to 
the region.
    Finally, the recent election in Mexico raises questions 
about the future of the U.S.-Mexico security relationship under 
the Merida Initiative. I hope that President-Elect Andres 
Manuel Lopez Obrador's campaign promise to root out corruption 
is a sign that our two countries can continue to cooperate on 
matters of security. One of those is the Merida Initiative, and 
we will hear more from you on this.
    The U.S. and Mexico share a 2,000-mile border, and must 
continue to work together to enhance both security and trade 
that benefits both our countries. NAFTA should be updated for 
the 21st century, not scrapped. And with that, let me go to our 
ranking member, Mr. Engel of New York, for his opening 
statement.
    Mr. Engel. Thank you very much, Mr. Chairman. Thank you for 
calling today's hearing. This region is particularly important 
to me as a former Western Hemisphere Subcommittee chair. 
Ambassador Merten, Deputy Assistant Administrator Lynch, 
welcome, and thank you both for your service. You are both 
doing great work. But again, I must say the White House's 
failure to fill key positions in a timely manner means we can't 
adhere from those setting the course for foreign policy. That 
is too bad, because in my view, the administration has put us 
on a very dangerous course when it comes to the Western 
Hemisphere.
    The way the President talks about this region says it all. 
Falsely insisting Mexico will pay for a border wall we don't 
need, the ugly language calling Mexicans drug dealers and 
rapists, the dehumanizing language about immigrants and 
characterization of Haiti and El Salvador using the word I 
won't repeat.
    Democrats and Republicans have worked for two decades 
together to improve the U.S.-Mexico relationship long 
characterized by mistrust. Bilateral cooperation on 
counternarcotics was once unimaginable. Amazingly, it became 
the norm with the Mexican Government extraditing the world's 
most dangerous drug kingpin, Chapo Guzman, to the United States 
in the last hours of the Obama administration.
    On July 1, Mexicans elected a new President, Andres Manuel 
Lopez Obrador. I worry that if President Trump continues along 
the same lines, President-Elect Lopez Obrador may pull the plug 
on security cooperation. Where would that leave us the next 
time we are seeking an extradition, or if terrorists sought to 
cross the U.S.-Mexican border? Too much is at stake in our 
bilateral relationship, and we simply don't know if the 
President will continue to do this, take to Twitter, and do 
damage.
    And looking south, Mexico is just a start. For months, the 
families have been torn apart, and Central American children 
essentially have been held ransom to a radical anti-immigrant 
agenda. The President created this policy. He then said only 
Congress could fix it, which wasn't true, made clear by the 
fact that he then signed an executive order trying to end the 
policy, but the damage was done. Children to this day still 
remain apart from their parents. That has to change. The 
Organization of American States unanimously adopted a 
resolution on June 29 criticizing the inhumane family 
separation policy.
    It is hard to remember a time in recent memory when the OAS 
permanent council has so forcefully condemned the United 
States, and that is just the start. The administration is 
making it harder for victims of abuse to come to the United 
States, saying domestic violence shouldn't be grounds for 
asylum, that women and children who have endured rape and other 
forms of violence should look elsewhere for sanctuary.
    The United States also just opposed a U.N. resolution 
promoting breastfeeding. I mean, it is unbelievable, and I fear 
the worst is yet to come. Temporary protected status will soon 
end for 262,000 Salvadorans, 86,000 Hondurans, and 58,000 
Haitians. As Mark Schneider of CSIS pointed out in The 
Washington Post this week, this move may result in 273,000 
American-born children being separated from their parents. This 
is a deeply troubling pattern in dealing with the treatment of 
women, of families of immigrants.
    Is this what we are becoming as a country? I hope not. I 
won't accept it, and I will fight tooth and nail against these 
policies that betray our values and make it harder to advance 
our interests abroad. After all, we are facing very real and 
urgent crises in the region.
    President Maduro has turned Venezuela into a full-fledged 
dictatorship, and rejected humanitarian aid. State Department 
sanctions against human rights violators were a step forward. 
But instead of working with regional partners, we have, again, 
bellicose rhetoric and threatening to invade Venezuela. The 
result, Maduro is empowered and alienated key allies at the 
same time.
    In Nicaragua, the Global Magnitsky Act has allowed us to 
crack down on thugs tied to President Ortega who are killing 
innocent people in the streets. Yet, the administration zeroed 
out democracy assistance to Nicaragua in its 2019 budget. And 
in Guatemala, absurd and unconfounded attacks on the U.N. 
International Commission Against Impunity in Guatemala, what we 
call CICIG, threaten the institution's ability to fight 
corruption and support the rule of law.
    Most recently, I was disturbed by the Guatemalan 
Government's decision to put CICIG personnel at risk removing a 
large portion of their security detail. President Morales 
should immediately reverse its decision. And I must say, since 
I have been critical of the White House, this time I was 
pleased that the White House came out in strong support of 
CICIG just this week.
    I congratulate Ivan Duque on his recent election victory in 
Colombia. Outgoing U.S. assistance is essential for 
implementing the peace process and supporting smart drug 
policies that go after kingpins while not harming small farmers 
or the environment. And in Argentina, I was glad to join Mr. 
McCaul in founding the Argentina Caucus to focus on a 
relationship that has improved a great deal since President 
Macri took office.
    Finally, the Caribbean. In 2016, Congresswoman Ros-Lehtinen 
and I authored the U.S. Caribbean Strategic Engagement Act, 
which President Obama signed into law in his last few days in 
office. Last June, the State Department released a strategy 
mandated by our law. It is an ambitious and impressive 
strategy, but unfortunately, 1 year later, it still has not 
been implemented. With hurricane season under way, the parts of 
the strategy related to disaster preparedness and resilience 
are especially urgent. I implore our witnesses to put some meat 
on the bones of what are on paper is an excellent strategy, and 
I would be remiss not to mention that Haiti is very much on my 
mind this week. Haiti has suffered far more than any country 
should, and I stand with the Haitian people at this difficult 
moment.
    So I thank you again, Mr. Chairman, and I look forward to 
hearing from our witnesses, and I yield back.
    Chairman Royce. Thank you, Mr. Engel. So this morning, we 
are pleased to be joined by Ken Merten, Acting Principal Deputy 
Assistant Secretary of State for Western Hemisphere Affairs, 
and Sarah-Ann Lynch, Senior Deputy Assistant Administrator of 
USAID for Latin American and the Caribbean. We welcome them to 
the committee. Ambassador Merten has been serving as the 
Principal Deputy Assistant Secretary of State for Western 
Hemisphere Affairs since August 2015. He is a two-time 
Ambassador, having served as the U.S. Ambassador to Croatia, 
and also, as the U.S. Ambassador to Haiti.
    Ms. Sarah-Ann Lynch currently serves as Senior Deputy 
Assistant Administrator for Latin America and the Caribbean at 
USAID, and prior to that, she was the mission director in Iraq. 
So we appreciate them both being with us here today, and 
without objection, the witnesses' full prepared statements are 
going to be made part of the record and members are going to 
have 5 calendar days to submit any statements or questions or 
extraneous material for the record.
    So if you could, Ambassador, I would ask you to just 
summarize your statement in 5 minutes, each of you, and then we 
will go to questions. Thank you.

STATEMENT OF THE HONORABLE KENNETH H. MERTEN, ACTING PRINCIPAL 
   DEPUTY ASSISTANT SECRETARY, BUREAU OF WESTERN HEMISPHERE 
               AFFAIRS, U.S. DEPARTMENT OF STATE

    Ambassador Merten. Thanks very much, Chairman Royce, 
Ranking Member Engel, members of the committee. Thanks for the 
opportunity to allow us to come here and talk a little bit 
about the administration's approach to our Hemisphere, the 
Western Hemisphere.
    We know that a democratic, prosperous, and secure Western 
Hemisphere enhances our national security and benefits our 
economy. Our policies are built upon that premise. The United 
States shares common values and has strong economic bonds with 
all the countries in this region. These long historical 
connections bind us to the nations of the Western Hemisphere 
more closely than in any other region.
    Our economic engagement with the Americas cannot be 
overstated. The United States is the top trading partner for 
more than half the countries in the region. We trade more than 
twice as much with the hemisphere as we do, for example, with 
China. We also share fundamental values. In the last decades, 
Latin America has largely transformed itself into a region of 
vibrant, peaceful democracies.
    The United States recently reaffirmed its commitment to 
these shared values and to our partnership with the region at 
the eighth Summit of the Americas in Lima, Peru in May. At that 
summit, leaders acknowledge the need to continue working 
together to address corruption, to strengthen institutions, and 
to improve transparency.
    We rely on strong hemispheric partnerships to fight 
transnational criminal organizations, and we work hand in hand 
with our partners to disrupt illicit networks and trafficking 
roots.
    Because our mutual security and prosperity are so 
connected, we work together to counter the illicit activity and 
the poverty that drive illegal immigration to the United 
States. As such, the U.S., together with our partners, is 
renewing its commitment to address the root causes of Central 
American migration.
    While most of the region enjoys democratic rule, Venezuela, 
Cuba, and Nicaragua continue to undermine the region's shared 
vision for effective democratic governance enshrined in the 
Inter-American Democratic Charter.
    The United States remains committed to standing with the 
people of Cuba, Nicaragua, and Venezuela in their struggle to 
achieve the liberty that they deserve.
    In Cuba, the regime continues its repressive hold on power 
despite the recent transition to President Diaz-Canel. 
President Trump's June 2017 Cuba policy emphasizes advancing 
human rights and democracy, and aims to ensure that the 
benefits of U.S. engagement flow to the Cuban people.
    In Nicaragua, we condemn the violence and excessive force 
used against demonstrators resulting in 215 deaths and hundreds 
more wounded since protests began now in mid April. We urge 
Nicaragua's government to strengthen democratic processes and 
institutions, and to respect human rights and fundamental 
freedoms and support the proposal for free and fair elections 
that would occur soon.
    In Venezuela, the Maduro regime has completely undermined 
democracy. We join the nations of the world in standing with 
the Venezuelan people as they seek to return to a stable, 
prosperous democracy they deserve. We are also addressing the 
humanitarian component of the Venezuelan crisis by supporting 
Venezuelans who are deprived, suffering, and increasingly 
forced to flee their homes.
    Overall, the United States is providing nearly $31 million 
in humanitarian assistance to Venezuelans in the region. We 
will continue to work with our partners to help restore 
democracy to Venezuela, Nicaragua, and Cuba, and we will 
continue to build a democratic, prosperous, and secure Western 
Hemisphere that further enhances our own national security and 
benefits our economy.
    So I look forward to your questions today. Thanks very much 
for the opportunity to speak with you.
    [The prepared statement of Ambassador Merten follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Chairman Royce. Thank you, Ambassador. Ms. Lynch.

   STATEMENT OF MS. SARAH-ANN LYNCH, SENIOR DEPUTY ASSISTANT 
ADMINISTRATOR, BUREAU FOR LATIN AMERICA AND THE CARIBBEAN, U.S. 
              AGENCY FOR INTERNATIONAL DEVELOPMENT

    Ms. Lynch. Thank you. Chairman Royce, Ranking Member Engel, 
and members of the committee, thank you for the invitation to 
testify today. I had the distinct pleasure of traveling with 
some of you recently while Administrator Green and I were in 
Peru at the Summit of the Americas in April, and thank you so 
much for your continued interest in our work in the region.
    USAID's engagement in Latin America and the Caribbean 
advances U.S. national security and economic prosperity, 
demonstrates American generosity, and promotes a path to 
recipients' self-reliance and resilience. This is a region with 
considerable opportunities, but also critical challenges. USAID 
works to increase the security and prosperity of the hemisphere 
by addressing issues of poverty, insecurity and governance. For 
example, our work in Mexico and Central America responds to 
challenges that inhibit business development, empower 
criminals, and lead to out-migration. Recent high levels of 
illegal migration from Central America come largely as a result 
of poverty, instability, and weak governance, including high 
levels of corruption and impunity.
    Therefore, USAID's programs focus on engaging young people 
before they turn to crime and violence, improving democratic 
governance, and addressing the economic conditions that drive 
people to make the perilous journey north.
    In Mexico, we partnered with the government to strengthen 
national institutions, spread the rule of law, and promote the 
protection of human rights. And together with Mexico, we are 
working closely with the Northern Triangle governments to 
address those challenges to security and prosperity that we 
collectively face.
    Two of our primary areas of focus in South America are 
Colombia and Peru. These countries are making enormous economic 
and social strides, but remain plagued by coca cultivation, 
which enriches transnational criminal organizations that 
threaten regional security. In Colombia, USAID is working in 
some of the most dangerous and hard to reach areas, which were 
cut off from state presence for decades during the conflict. 
Our efforts to reduce the power and influence of illegal-armed 
groups build a culture of legality, expand state presence in 
former conflict areas, and enable licit rural economic growth 
are seeing promising results.
    Similarly in Peru, USAID assistance helps to reduce the 
flow of illicit drugs by providing farmers with alternatives to 
coca cultivation, and the results--the achievements are 
impressive.
    As the third border to the United States, the Caribbean 
remains vital to American security and prosperity. I would like 
to thank Ranking Member Engel and Ms. Ros-Lehtinen for their 
continued interest and engagement on Caribbean topics, and 
especially for authoring H.R. 4939, which helps lead the U.S. 
strategy for engagement in the Caribbean.
    Under the Caribbean Basin and Security Initiative, CBSI, we 
are working to improve citizen security and provide employment 
and education opportunities to youth at risk of joining gangs 
and other transnational criminal organizations.
    We are also working with countries across the Caribbean to 
increase resilience so that they are better able to withstand 
shocks, such as tropical storms and hurricanes. Maybe we need 
to focus for our work in the Caribbean where we are addressing 
poverty, promoting good governance, improving health, and 
advancing transparent and accountable government institutions. 
However, as this weekend's violence has demonstrated, Haiti's 
progress and stability continues to be fragile.
    And unfortunately, Haiti is not the only place in the 
region where we have seen violence and instability recently. We 
are very concerned for the people of Nicaragua who are 
suffering a brutal crackdown at the hands of the Ortega 
government. USAID has given rapid assistance to the brave civil 
society groups, human rights organizations, independent media, 
and others involved in peaceful protest. And we remain flexible 
to respond to needs as they emerge. USAID also helps to 
maintain an operating space for those in Cuba who seek to 
preserve their basic freedoms of speech, religion, assembly and 
democratic voice. But one of our most pressing priorities in 
the region right now is the outflow of Venezuelans who are 
fleeing their country in record numbers in search of food, 
medicine and healthcare.
    To help these families who have fled to neighboring 
countries, USAID has partnered with these countries to provide 
humanitarian and development assistance to meet the most urgent 
needs. And while humanitarian assistance will help with 
immediate needs, it will not and cannot address the root causes 
of Venezuela's instability. Only lasting political and economic 
reforms will provide sustainable solutions.
    To help the Venezuelan people maintain their voice, USAID 
supports human rights, civil society, independent media, 
electoral oversight, and the elected national assembly.
    In this discussion, I cannot overlook the rise in competing 
foreign engagement in the region. We recognize that some 
countries have different development models than ours, but we 
believe we offer the clear choice. For example, where other 
countries assistance models may further dependence, our 
development assistant promotes a country's own journey 
consistent with U.S. supported universal values and interests 
bolstering our partners' self-reliance and prosperity.
    To accomplish our goals, we coordinate and leverage the 
work of the U.S. interagency, other donors, the private sector, 
faith-based communities, and nongovernmental organizations. In 
all of our work, we are committed to oversight and ensure that 
our programs are smart and impactful. We use a range of tools, 
such as monitoring surveys, evaluations, and assessments to 
understand the effects of our programs and help us capture 
changes at the community or other subnational levels. We know 
very well our responsibility to the American taxpayer, and we 
take our obligation very seriously.
    Mr. Chairman, Ranking Member Engel, I want to thank you and 
the committee for the opportunity to give an overview of our 
work, and I welcome your questions. Thank you very much.
    [The prepared statement of Ms. Lynch follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Chairman Royce. If I could begin with this question, we 
have got 26 U.S. diplomats and their family members who have 
suffered symptoms similar to brain injury or concussion 
following sonic attacks in Cuba. We have another three 
officials now in China who have suffered similar symptoms. In 
response to the attacks, the State Department ordered the 
departure of nonessential personnel and their families in 
Havana. Sixty percent of the U.S. mission diplomats in Cuba 
have been withdrawn. Other than the Canadian mission in Havana 
where the Canadians report 10 of their diplomats were targeted, 
have any other Embassies been affected, to your knowledge?
    Ambassador Merten. Not to my knowledge, Mr. Chairman. This 
is something which is very worrisome to us, but we are not 
aware of any other Embassies at this point.
    Chairman Royce. What is the health condition of the U.S. 
diplomats and the family members affected by these unexplained 
attacks at this point?
    Ambassador Merten. Well, I think you covered it very well 
in your opening remarks. The health effects differ from person 
to person. Some are more serious on some individuals. On some 
individuals, they are less serious. But the bottom line is the 
impact of these attacks on folks is serious, which is why they 
were withdrawn, and we have gone down to a skeleton crew at the 
Embassy there.
    Chairman Royce. And the last question I would ask you on 
this is how close is the administration to understanding and 
identifying the source and cause of these attacks?
    Ambassador Merten. Well, we have taken this, as I 
mentioned, very seriously, both in the Cuba context and in the 
China context, which is, frankly, still very much evolving. 
Bottom line answer is, we don't know who is responsible, and we 
don't know what is responsible for this. We have various 
investigations ongoing. The FBI is involved. The CDC is 
involved in looking at this. We have employees who are being 
looked at by outside medical care. But we are still unsure 
exactly what it is these people have been afflicted with.
    Chairman Royce. Let me go to a question about the crisis in 
Venezuela, which is worsening. While President Maduro further 
cemented his power with sham elections this past May, we have 
seen the situation on the streets there and especially the 
widespread food and medicine shortages that continue to 
displace Venezuelans that create a regional crisis, refugee 
crisis, as well as a humanitarian crisis, obviously. And 
meanwhile, despite sitting on the world's largest oil reserves. 
Venezuelan oil production has fallen by half in the last few 
years. Venezuela, in the meantime, has been sending several 
hundred thousand barrels of oil every day to China as repayment 
on the tens of billions of dollars it has borrowed, and more 
recently, China's development bank announced a new quarter 
billion dollar investment to shore up Venezuela's struggling 
oil production.
    Is the administration concerned about China's economic 
stranglehold on Venezuela? And is China using Venezuela's as a 
foothold to gain influence in the rest of the region?
    Ambassador Merten. Thanks for the question, Mr. Chairman.
    It is not clear that China is necessarily using Venezuela 
as a foothold. Our information indicates that the Venezuelan 
economy still continues to crater, if you will excuse my using 
that term. Oil production continues to go down. The national 
oil company, PDVSA, has been plagued by mismanagement, by 
political hacks replacing people who knew what they were doing, 
and the company continues to deteriorate, and thus, robbing the 
Venezuelan people and the Venezuelan Government of what should 
be a very valuable source of income for them.
    We are, obviously, watching very carefully what China does 
throughout the hemisphere. You know, and we monitor that very 
carefully. We are concerned about the role they play. We 
believe we are a much better partner for all our friends in the 
hemisphere. We share values. We share goals. And it is not 
clear to us that the Chinese government or entities operating 
overseas share the same goals as our friends in the hemisphere.
    Chairman Royce. Well, let me ask a question of Ms. Lynch in 
terms of the greatest health concerns that are caused by the 
crisis in Venezuela and by the refugee crisis, and what is 
being done, for example, to ensure vaccinations and other 
medicines are made available, because there is widespread 
shortage throughout Venezuela right now on the vaccinations.
    Ms. Lynch. Right. Thank you for the question. Yes, we are 
also deeply disturbed by all the images and the news reports 
coming out of Venezuela. As such, we have been able to 
identify, as the Ambassador said, several millions of dollars 
of assistance that is going to the almost 2 million Venezuelans 
that have fled that country in search of very basic needs like 
food, medicine, and healthcare. And Colombia, obviously, is 
taking the brunt of the movement of people. I myself was up on 
the border not too long ago in Cucuta and witnessed firsthand 
the Venezuelans crossing the Simon Bolivar Bridge, and it is 
very disturbing. The bulk of our assistance to the Colombians 
is in those areas, food, medicine, and healthcare, but also to 
help them manage the crossing of the great number of people.
    We are also assisting Brazil in the region. And in 
addition, we were able to get an assessment team, USAID 
assessment team, into Venezuela in order to get the contacts on 
the ground and do a full assessment, and this was a team that 
spent nearly 2 weeks there, did not just stay in Caracas, but 
they went throughout the country and they visited schools, they 
visited clinics, they talked to NGOs, they talked to the 
private sector, church they talked to as well as organizations, 
civil society organizations that could provide humanitarian 
assistance at scale.
    One issue that we found is that they lack capacity. So what 
USAID is doing to respond right now is training these 
organizations to be able to provide humanitarian assistance at 
scale. So to deal with the logistics involved in that kind of 
effort and to identify the truly at-risk people. So with that, 
we will be able to address the concerns that you mentioned.
    Chairman Royce. Thank you. Mr. Engel?
    Mr. Engel. Thank you, Mr. Chairman. Nothing can quite make 
people understand the horrors that are occurring in our own 
country as a consequence of the President's family separation 
policy than hearing the individual stories of Central American 
children.
    So I would like to briefly talk about Jose, Olivia, and 
their sons, Mateo and Andre, who came to the U.S. from El 
Salvador seeking refuge from gang violence and extortion. A 
close friend was killed by the same gang threatening Jose and 
Olivia when he was unable to pay them. So fearing for their 
lives and the lives of their children, Jose and Olivia joined a 
caravan of asylum seekers and traveled for a month through 
Mexico to reach the border.
    Upon arrival, they presented their papers and the 
children's birth certificates, proving their familial 
relationship to avoid agents' suspicion that Jose was a 
smuggler paired with children that were not his. Regardless, 
U.S. authorities separated the family and sent Mateo, only 1 
year old at the time, to a facility 1,500 miles away.
    Olivia and Andre awaited news of Mateo's status from a 
migrant shelter in Mexico. When Olivia called the facility 
where Mateo was being held, she was told he is doing fine with 
no further information on his well-being, and certainly, they 
wouldn't allow her to speak with her son. She was reunited with 
Mateo finally after 85 days. According to her testimony, she 
said that after reuniting with her toddler, ``He continued to 
cry when we got home and he would hold to know my leg and would 
not let me go. When I took off his clothes he was full of dirt 
and lice. It seemed like they had not bathed him in the 85 days 
he was away from us.'' And that is a quote. Obviously, this is 
child abuse. It is unconscionable and should not have happened.
    So I recently introduced the Central America Family 
Protection and Reunification Act with Representatives Torres 
and Espaillat, who are both members of this committee. And this 
would require the State Department, through our Embassies in El 
Salvador, Guatemala, and Honduras, to play a much more active 
role in supporting Central American governments and parents on 
family reunification.
    Ambassador Merten, let me ask you: Can you please tell us 
what our Embassies in these countries are doing to support 
family reunification, if anything?
    Ambassador Merten. Thanks for the question, Representative 
Engel. What we are doing in Central America, we have a Central 
America strategy which seeks to get at the root causes of 
migration, to hopefully give people less of a reason to want to 
leave their country in the first place. And our efforts have 
been really focused on implementing that strategy, particularly 
in the Northern Triangle.
    We are looking at using tools to eliminate corruption that 
allow a climate of impunity for those who seek to abuse people. 
We are supporting law enforcement activities through our 
partners in the region. We are working to help them improve 
their judicial systems so that criminals can be put away in a 
clear and transparent way according to local laws.
    We are working to help these countries grow their 
economies, and we believe that addressing these issues will 
really obviate the need for these kind of--that drive people to 
want to leave their countries and force them into situations 
like you just described.
    Mr. Engel. But are Embassies specifically--are Embassies 
helping to reunite families? Are Embassies playing any role in 
that in the reunification?
    Ambassador Merten. At the risk of misleading you, I would 
rather take that question back and get back with an answer to 
you. I don't want to give you an answer which is incorrect.
    Mr. Engel. Thank you, because that is what our bill, our 
legislation does. It involves the Embassies, which makes sense 
to me, because anything we can do to help expedite this would 
be good.
    Ms. Lynch, our legislation also requires the State 
Department strategy to address pervasive gender-based violence 
in the Northern Triangle. Can you please describe the impact of 
gender-based violence, and specifically, domestic violence on 
women in El Salvador, Guatemala, and Honduras?
    Ms. Lynch. Thank you for the question. Yes, all of our 
activities in the Northern Triangle are based at focusing on 
the root causes of illegal migration. And certainly, we work on 
the security front, as well as governance and prosperity. So 
this would fall into that security front and governance as 
well, whereby we just find the gender-based violence. The rates 
that you see in the Northern Triangle are just horrific. So 
what we do is we incorporate women as well as other 
marginalized communities that suffer as well at higher rates 
than others--violence. We incorporate them into all of our 
programming, and that means on the governance front, making 
sure there is legislation that addresses these issues; on the 
citizens front, making sure that there is citizen awareness and 
that there is the capacity of certain civil society 
organizations to address those issues. And in addition, 
prosperity, economic opportunity, is really what gives these 
women power and control over their lives, so specifically with 
all of our programming that involves increased jobs and 
economic growth, we involve women and marginalized communities 
to the fullest extent.
    Mr. Engel. Well, thank you. Let me just say that given the 
pervasiveness of domestic violence in the Northern Triangle and 
the low rates of prosecution for these horrific crimes, it is 
really horrifying that Attorney General Sessions says he will 
no longer allow these crimes to be grounds for asylum. I think 
that is just a very bad thing.
    And finally, let me piggyback on--the chairman has talked a 
lot about Cuba and our Embassy officials being targeted. One of 
the things that I have called for is to have the CDC--to 
involve the CDC, and why has the administration, referring to 
the health--well, let me just say this, why has the CDC not yet 
been deployed to Cuba? It certainly seems to me that we should, 
if we are really going to get to the bottom of it, and I just 
don't understand why that hasn't happened. Does anyone have any 
insight into that for me?
    Ambassador Merten. Thanks very much, yes. One of the things 
that we have done in the past month or so is Secretary Pompeo 
has asked that Deputy Secretary Sullivan chair a task force to 
look at these incidents, both in China and the attacks in Cuba, 
and this task force is chaired by the Deputy Secretary; he 
participates in it; I participate in it representing the Bureau 
of Western Hemisphere Affairs.
    We also have, once a week, a meeting of the task force with 
the interagency community, and in that community, CDC is 
present, and they are an active member of that community, of 
the interagency community that participates in this task force. 
I don't know if they have plans to travel yet, but I think 
their involvement in this is relatively recent, but I think 
there is a possibility that they could become more involved. I 
am not--it wouldn't be appropriate for me to really explain 
what their plans are to do, but they are participating now in 
this interagency task force.
    So as I said, we remain very concerned about this, and I 
think we are looking for any tools we can find to really get to 
the bottom of what is causing this.
    Mr. Engel. Thank you. Thank you, Mr. Chairman.
    Chairman Royce. Yes, and Mr. Engel and I are going to be 
meeting with Deputy Secretary Sullivan this afternoon at 4 
o'clock, so we will raise that issue, Ambassador, with him as 
well at that time.
    We will go now to Ileana Ros-Lehtinen.
    Ms. Ros-Lehtinen. Thank you so much, Chairman Royce. Thank 
you, Ranking Member Engel, for, once again, holding a hearing 
on a very timely and important topic. Since widespread protests 
began on April 18 in Nicaragua, we have seen over 300 people 
killed under the direction of Daniel Ortega and his henchmen, 
and Venezuela's Nicolas Maduro continues to rule with impunity 
ignoring the pleas of the Venezuelan people for new leadership. 
In my native homeland of Cuba, Raul Castro continues to call 
the shots as head of the Communist Party, all the while hiding 
behind the veil of the so-called transition of power. Under 
Diaz-Canel, nada has changed for the people of Cuba. Activists 
are still being held for days at a time. Las Damas de Blanco 
are still being beaten and arrested, and the regime continues 
to rule with an iron fist.
    More worrisome, Mr. Chairman, is that cooperation between 
these rogue regimes has actually increased. Just last week, 
there were reports indicating that Maduro has sent a shipment 
of weapons to Ortega to help him further suppress and silence 
the Nicaraguan people. Instead of using the country's resources 
to alleviate the Venezuelan people suffering, suffering he 
caused for his failed policies, he sends weapons to his cronies 
making him complicit in the deaths of so many in Nicaragua.
    But this U.S. administration has shown a willingness to 
lead and hold those abusers accountable in stark contrast to 
the previous administration, and I thank our witnesses here for 
explaining all that has happened. We have seen a reversal of 
the disastrous Cuba policy. We have seen a more active use of 
sanctions, particularly the global Magnitsky sanctions in 
Nicaragua and targeted sanctions against the Maduro regime in 
Venezuela.
    On two occasions, I have read letters urging sanctions on 
several Nicaraguan regime officials for their roles in the 
human rights abuses being perpetrated against the people of 
Nicaragua. The administration has included most of these 
individuals on the global Magnitsky list, but I intend on 
sending another letter shortly with more names. And the 
administration has begun to provide assistance to Venezuelans 
who have fled to neighboring countries and has signaled that it 
will make freedom and democracy in the region a priority, but 
more must be done. And you had explained, Ms. Lynch, about what 
the administration, and specifically, USAID, has been doing to 
support the Venezuelan refugees who are in Colombia and Brazil.
    I wanted to ask you about Ecuador, what help is being given 
to the Venezuelans there that Vice-President Pence was just 
there. So what more can be done? And secondly, I worry about 
China's growing presence and influence in the entire region 
using its resources to bully nations to further isolate our 
strong ally, Taiwan, and what is the administration's strategy 
then to counter Chinese aggression to help Taiwan strengthen 
its relationship with its partners in the region. Thanks again, 
Mr. Chairman.
    Ms. Lynch. Thank you, ma'am. Yes, some small scale 
assistance was requested from Ecuador from the U.S. 
interagency, and that is being provided. And we stand ready to 
assist other nations if they are interested in additional 
assistance. We know this is a horrific regional problem that 
may impact other nations in the region, other strong partners 
of ours.
    Regarding our perspective on the development side on China, 
for example, what from AID's vantage point, we believe that our 
work in building strong institutions in the region, as well as 
promoting strong economic investments, particularly from the 
U.S., are good antidotes to the influence of nations that have 
a different development model than we do.
    You know, some of these other donors, as I mentioned in my 
opening are more--their development model is one more of 
dependence rather than one of partnership. Ours is of 
partnership where we look to work with partners who are self-
reliant eventually.
    Ms. Ros-Lehtinen. Thank you.
    Ms. Lynch. And we look forward to working with you in that 
area.
    Ms. Ros-Lehtinen. Thank you, Ms. Lynch. Mr. Ambassador?
    Ambassador Merten. Just to talk briefly about the influence 
of China in the hemisphere again, yes, it is something, as I 
mentioned earlier, that we are concerned about and watching 
very carefully. We regularly talk to our partners in the 
region, I have done so myself, to explain what it really means 
to sign up with--to some of the blandishments of the PRC in 
terms of loans and other things. These are things that we have 
seen in the recent past that don't necessarily help these 
countries out in the long term. They may be quick political 
fixes, but I think we are trying to explain, in very clear 
terms, that it makes more sense for long-term development of 
all our partners in the region to focus on rules-based and 
normal economic development.
    Our assistance programs in the region seek to support rule 
of law and governance, and to make these countries better 
places to live, better places to do business, and thus, 
ultimately reduce migration. But it is an issue that we 
continue to work very diligently on and are paying close 
attention to.
    Ms. Ros-Lehtinen. Thank you very much. Thank you, Mr. 
Chairman.
    Chairman Royce. Thank you, Ileana. We go to Brad Sherman of 
California.
    Mr. Sherman. Mr. Chairman, we have a knowledgeable witness 
here, but he is the, as I understand it, Acting Principal 
Deputy Assistant Secretary. We used to have under secretaries 
and assistant secretaries come here. They may not have been 
more knowledgeable, but they were higher ranking in the State 
Department. The administration took over a year to appoint an 
Assistant Secretary for the Western Hemisphere, and a 
Republican Senate still hasn't acted to confirm. The 
administration is hollowing out the State Department, and I 
think we as a practice should be compelling the testimony of 
those at the National Security Adviser's Office and Council if 
you are going to hollow out the State Department that if we are 
going to oversee foreign policy, we have to have those 
witnesses.
    I had a chance to visit the kids who are separated by the 
United States at the border. I want to commend the State 
Department for its 2018 Trafficking in Persons Report, which 
identified and condemned foreign governments for separating 
children from their families, and relate the story of one 
particular family. Jose and his son, Brian, arrived in 
California from Honduras, my State, in May. Brian's mother had 
been raped and brutally murdered. She was 7 months pregnant at 
the time. Jose and Brian thought that they might face a similar 
outcome.
    Jose was jailed for 20 days and asked to sign papers he 
couldn't understand because they were in English and deported 
back to Honduras. This after Brian, the son, had been separated 
from his father. There are news reports that say that this 
whole process at least began--it seems now they are walking it 
back--as an effort to deter immigration from Central America. 
Has there been any effort at the State Department to try to 
tell people in Central America, ``Don't come to the United 
States, we will treat you harshly, separate families, deport 
you,'' et cetera? Ambassador?
    Ambassador Merten. Thanks for the question. What we do tell 
people is to not make a journey that is dangerous or illegal. 
We always encouraged legal orderly migration of people, legal 
and orderly travel of people, so that is what we have been 
focusing on.
    Mr. Sherman. Okay. I want to move on to one other issue, 
Ecuador. Julian Assange is in their Embassy in London. He is 
wanted by law enforcement authorities in both Britain and 
Sweden. One thing we know about Julian Assange is that he did 
collude with Russia to use cyber files stolen from the 
Democratic National Committee to affect the U.S. election. And 
in 1972, when files were stolen from the Democratic National 
Committee, Members of Congress from both parties condemned that 
action. We haven't put any pressure on Ecuador to turn out Mr. 
Assange, and I understood that to be because we had such 
respect for Ecuador's sovereignty. And then I find out in The 
New York Times that we threatened Ecuador with punishing trade 
measures and a withdrawal of critical military aid if they 
wouldn't withdraw their support for a World Health Organization 
resolution encouraging breastfeeding.
    Ambassador, can you, on the record, indicate that you know 
that these reports in The New York Times were false, and that 
we did not threaten Ecuador on this issue?
    Ambassador Merten. My understanding from our Ambassador and 
from my colleagues in the State Department Bureau of Western 
Hemisphere Affairs that work on this issue, on a regular basis, 
is that we did not threaten anybody, that the U.S. supports 
breastfeeding.
    Mr. Sherman. But we don't support efforts at breastfeeding 
beyond what the companies that make billions of dollars on the 
formula industry by discouraging breastfeeding want us to do. 
We support only mild resolutions, and we force the World Health 
Organization to back down and adopt a milder resolution. But 
you are certain now that Ecuador can introduce the stronger 
resolution, and there will be no diminution of trade or aid. 
Can Ecuador count on you for that?
    Ambassador Merten. I can tell you what has happened thus 
far in my understanding----
    Mr. Sherman. What is our policy? Is it our policy to 
threaten Ecuador on this issue or to allow them to go forward?
    Ambassador Merten. My understanding is that there has been 
no threatening, and I do not believe that we----
    Mr. Sherman. So they are free to go forward, you can 
guarantee it?
    Ambassador Merten. I am not here to guarantee that going 
forward.
    Mr. Sherman. So maybe they will be threatened, maybe they 
won't, they either have to----
    Ambassador Merten. They are not going to be threatened, 
sir, but I will say that this is----
    Mr. Sherman. They are not going to be threatened?
    Ambassador Merten. This is a policy that we don't actually 
own----
    Mr. Sherman. So The New York Times reports are false?
    Ambassador Merten. As I understand from our Ambassador and 
from the folks that work on this in our bureau, that nobody was 
threatened. We have not threatened to pull trade sanctions or 
anything else on Ecuador. That is my understanding, sir.
    Mr. Sherman. Well, a lot of infants are going to get worse 
nutrition as a result of the successful efforts by the United 
States at the World Health Organization to water down this 
resolution, and I yield back.
    Chairman Royce. Chris Smith of New Jersey.
    Mr. Smith. Thank you, and thank you for your testimony to 
our two witnesses. On April 27, I chaired a hearing on serious 
and credible allegations of collusion between CICIG and the 
Russian Government in the persecution, mistreatment, and 
incarceration of a Russian family, the Bitkovs, who fled Russia 
after Putin's cronies threatened their lives, took away their 
business, and, of course, the young daughter was raped, 
Anastasia, who obviously is still dealing with the aftermath of 
that.
    Our prime witness was Bill Browder, the main man, whose 
tenacity, courage, and credibility led to at least an 
accountability of what happened to Sergei Magnitsky. It is 
because of Bill Browder that we have the Magnitsky Act. It is 
because of Bill Browder that we have the Global Magnitsky Act, 
so when he speaks, everybody should listen and should listen 
very carefully, and I share his concerns about the Bitkovs.
    Let me just say to my colleagues: In 2013, the Bitkovs fled 
and finally got to Guatemala under an assumed name. They used 
documents that were not true, but again, for having documents 
that weren't true--and they are true refugees. The Palermo 
Protocol says you don't prosecute when somebody is fleeing 
tyranny and has a well-founded fear of persecution. Igor got 19 
years in prison. Irina got 14 years. And Anastasia, 14. Igor 
spent 3 years in pretrial detention, jail, in a very, very 
unseemly pattern that CICIG is a part of.
    Now my question to our distinguished colleagues today is, 
one, have you investigated, and has there ever been, is there 
now any collusion whatsoever between VTB, Gazprombank, 
Sberbank, or any other person associated with the Russian 
Government and CICIG, including Ivan Velasquez on any matter 
relating to the prosecution and incarceration of the Bitkovs?
    Second, can you tell us what kind of information do you 
have? Is there any accountability? I have asked the Secretary 
General of the United Nations, Antonio Guterres, why aren't you 
looking into this? He says they have no authority to do so. He 
told me that just a few weeks ago when I met with him.
    I am asking today, and I will do it by way of letter, that 
the Inspector General investigate the potential of collusion. 
My hope is that in an answer to my question, you will say that 
you have thoroughly investigated this, and you either found it 
or you didn't, or to some degree, there is some collusion. 
Those are my opening questions, and I do have some further 
ones, but if you can answer that.
    Ambassador Merten. Thanks for the question. This is an 
issue that we follow closely. Our Embassy and the Department 
have looked into these allegations of collusion. Thus far, have 
found no evidence that that has occurred.
    Mr. Smith. Could you give us details of what that 
investigation included? I mean, was it done just asking Mr. 
Velasquez and a few others, ``Hey, is there collusion?'' Or did 
you really dig into documents and look into this? I call your 
attention to this, and we will give you a copy, an excellent 
piece that was put together by Mr. Bill Browder--this just 
reeks of collusion, so I would like to know exactly what that 
investigation entailed.
    Ambassador Merten. Sure. I look forward to receiving that 
document, and I think if you allow us to get back to you with 
exactly what has been done, I think that would be a more 
effective way of answering your question.
    Mr. Smith. Is there any mechanism for holding CICIG to 
account? I mean, there is a hold on their $6 million now that 
has finally gotten their attention. Two days before I had my 
hearing, the constitutional court found in their favor. Again, 
we are talking about 19 years, 14 years, 14 years. People don't 
get that many years for murder in Guatemala, and CICIG then 
appealed that ruling and now there is going to be another 
prosecution of, at least Igor, which is absurd.
    I mean, if I was doing that with my family, and I would say 
the same to you: Wouldn't you use every means possible to get 
out of a country that is going after you, hurting your 
daughter, putting you into prison and maybe even killing you? 
We have learned that from Sergei Magnitsky, I thought, and many 
others. We called our hearing the Long Arm of the Russians. Let 
me ask you again, is there any kind of connection between CICIG 
and the Russians?
    Ambassador Merten. Again, thus far in our investigations we 
have found no collusion between them.
    Mr. Smith. And no contact, no cooperation?
    Ambassador Merten. The information I have been given we 
have not received that--we have not seen that. So that is----
    Mr. Smith. Maybe the IG will be able to ferret out that 
information. Let me ask you about the Guatemalans who are held 
in pretrial. There is a dual national from Jersey City, Anthony 
Segura, 3 years in pretrial detention. I know, and I have been 
in Congress 38 years, Mr. Chairman, and I have been to places 
like Bolivia where they use prosecution as way of getting 
political retribution, and certainly, Evo Morales does it 
better than anybody else on earth. What is your view about 
these pretrial detentions that go on for years with CICIG's 
full complicity in that?
    Ambassador Merten. Well, pretrial detention is a problem in 
a number of countries throughout the hemisphere. It is 
something that we work at in our rule of law programs to get 
countries to establish mechanisms to reduce or eliminate 
pretrial detention. I think our work in that area is certainly 
ongoing. So obviously, it is not a situation we like. We are 
working in a number of countries to help address that.
    Mr. Smith. Let me just ask you, finally, because my time is 
running out, Mary Anastasia O'Grady from The Wall Street 
Journal in her piece, and I invite members to read it, 
``Guatemala, Russia and the Bitkovs, The family remains in 
jeopardy thanks to a U.S.-funded rogue U.N. agency.'' She 
points out immediately after the high court decision, CICIG 
apologists launched a full scale press on Capitol Hill to cover 
up the U.N. agencies' many transgressions. How do you respond 
to that?
    Ambassador Merten. I am not aware of any such cover-up. If 
you would like to ask, we can get you more details on what we 
know on that. I am not aware of that, sir.
    Mr. Smith. So there is no cover-up?
    Ambassador Merten. I am not aware of a cover-up, sir.
    Mr. Smith. Thank you, Mr. Chairman.
    Chairman Royce. Thank you. We share the concerns of Mr. 
Smith. This committee will continue to work with the Senate, 
the State Department, the U.S., U.N. on reforms that will 
preserve the essential functions of CICIG while responding to 
legitimate criticisms of overreach. All right. We go now to 
Albio Sires of New Jersey.
    Mr. Sires. Thank you very much, Mr. Chairman, for hosting 
this full committee hearing on the Western Hemisphere, and I 
want to thank our panel that is here today. Thank you very 
much.
    I have this issue over the last few years that I have been 
on the Western Hemisphere Subcommittee that we just don't focus 
enough on the Western Hemisphere and the Caribbean. I think 
that while we sleep, there are people out there plotting, and 
basically I am talking about China, I am talking about Russia, 
I am talking even about Iran, who is now started with a couple 
schools now they have over 100 schools throughout the area. And 
the signs are there. I mean, even in Venezuela, you have 30,000 
Cubans basically running the show there, and Cuba, they started 
with the national assembly, which basically destroy all sorts 
of democracy or anything that was there. And then you have, in 
Venezuela, you have the constituent assembly, which is 
basically the same thing destroying any signs of democracy. And 
then you go to Nicaragua, you have the Russians selling them 
$80 million worth of tanks, and they are asking the people of 
Nicaragua to contribute more to the Social Security. I mean, 
the signs are there. And I don't know what we do is basically 
insult some of these people in Central America, which makes 
your job a lot harder when you want to talk about democracy and 
talk about investment. I mean, where do we go from here? We got 
a new President in Mexico. I don't know how we deal with the 
new President of Mexico after all the insults that we have laid 
on the Mexican people. And before we know it, all these people 
are going to be in our backyard, all these countries that are 
plotting as we sleep.
    So, I am not all that bullish on this area. I see more and 
more democracies going down in the future. You have Venezuela, 
and you have Nicaragua. You have to a certain degree Ecuador, 
some of these other areas.
    So where do you see democracy in the area? Can you tell me 
about that?
    Ambassador Merten. Thanks for the question.
    I think we see the hemisphere largely united behind, as I 
said in my opening remarks, the Inter-American Democratic 
Charter. We have been working the OAS. I think we have seen a 
pretty significant amount of support in the OAS to voice their 
opposition to undemocratic steps that are taken in countries 
like you have mentioned.
    I think that we continue to do work to promote civil 
society, to engage with civil society, and to enable opposition 
parties to have a voice. We have supported those people in 
Nicaragua who are calling for early elections. We have 
acknowledged that. So I think we are still working very 
diligently on this.
    But these are countries that, as several members have 
already noted, are not necessarily going to be--they are not 
squeamish about using repression as a way to stay in power.
    Mr. Sires. I look at Nicaragua. We have a bill, Ileana Ros-
Lehtinen and I, the NICA bill. Basically, it doesn't allow them 
to take loans from international finance institutions.
    Why should we allow them to have loans from financial 
institutions when they go and spend $80 billion on Russian 
tanks to oppress their people? And yet some people here don't 
like to support something like that.
    I think we have to bring some sort of pressure on these 
governments to realize you just can't run over people and just 
expect us, the United States, to not do anything, especially 
when it is our Western Hemisphere and our Caribbean. We really 
have to focus more on those areas.
    Ambassador Merten. Well, as you know, we have applied 
individual sanctions on members of the regime in Venezuela. We 
have applied the Global Magnitsky Act to three people in 
Nicaragua. We have, as I understand it, revoked 21 visas from 
government officials or officials who were responsible for 
these types of things. I think, you know, there is a 
possibility we could look at more of those kinds of tools as 
well.
    Mr. Sires. Okay.
    Thank you, Chairman.
    Chairman Royce. Mr. Dana Rohrabacher of California.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman.
    Let me just note from the some of the comments we have had 
so far that this condemnation of our President for the policies 
that we now have in terms of people who are coming to our 
country illegally and separation of families, let us just note 
that that policy was in place and put in place during the Obama 
administration. And I consider that singling out our President 
today is very political, because I didn't hear any of the 
complaints coming from that side of the aisle during the Obama 
administration when the policies were exactly the same.
    With that said, I have somewhat of a disagreement over the 
idea of using the word ``migration.'' Maybe you could tell me, 
what is the population of Latin America?
    Ambassador Merten. I don't know off the top of my head, 
sir.
    Mr. Rohrabacher. Do you know what the population of Latin 
America is?
    Ms. Lynch. We can get that for the record.
    Mr. Rohrabacher. Okay. Well, I think these are fundamentals 
that people need to know when they are talking about migration. 
We are not talking about 10 million people. We are not talking 
about 50 million people. We are talking about hundreds of 
millions of people, are we not?
    And when you have societies like we see in Latin America--
and elsewhere in the world, I might add, but now we are focused 
on Latin America--where you have millions and millions of 
people living in countries that are somewhat chaotic and very 
clearly repressive--and let me identify myself with the remarks 
of Ileana Ros-Lehtinen and her concerns about Nicaragua and 
Venezuela, but those same types of repression can be found in 
other countries, Latin America as well.
    We do not have a policy--or do you believe that we should 
have a policy in labeling those people migrants, thus giving 
them some other definition rather than illegal entries or 
illegal immigrants into our country? You think that that should 
be open to hundreds of millions of people when they end up 
suffering under their own government?
    Ambassador Merten. Well, sir, our policy with Central 
America is to address the root causes that drive people out 
of----
    Mr. Rohrabacher. I understand that. That is not my 
question. Because I understand--that is a good point. I voted 
for NAFTA for that reason, because I felt making sure Mexico 
had a very good economy would take the pressure off of people 
coming here illegally.
    Okay, let me ask you this: How many people are permitted to 
legally immigrate from those countries into the United States 
every year?
    Ambassador Merten. Sir, I don't have those figures. That is 
a DHS, Department of Homeland Security, function.
    Mr. Rohrabacher. Okay. So already we have, however--you can 
correct me if I am wrong. I am assuming we are talking about 
millions of people over a 10-year period coming from that area 
legally into our country. Over a 10-year period, we permit more 
legal immigration into our country than all the rest of the 
countries of the world combined.
    But what I am worried about, after hearing your testimony 
today and the use of the word ``migration,'' is that that in 
some way gives credence that the United States has to accept 
millions of more people into our country over and above the 
million that we allow in already legally, which, as I say, is 
more than the rest of the world combined.
    Now, is there a limit that you think that we should have on 
people who are--you call it migration. Is there a limit on 
migration into our country?
    Ambassador Merten. My understanding--again, this is not an 
area of expertise for me; this is really a Department of 
Homeland Security issue--is that there are rules established 
for this that the administration has established. There are 
rules for people, for example, who can apply for asylum----
    Mr. Rohrabacher. Okay. Well, let me just say I disagree 
with you totally. I think members of our State Department 
should be concerned about massive flows of people coming into 
our country illegally.
    And I think the use of the word ``migrant'' in some way 
adds some kind of problem with us for not accepting migrants, 
as compared to people who have come here illegally, when we 
have a very robust legal immigration system. Our legal 
immigration, as I say, it is the best in the whole world. No 
one comes close to us on letting--and now we are supposed to 
feel guilty about not permitting a more massive flow? Which 
basically would change the nature of our society, as it has.
    And let me just note, Daniel Ortega and these folks and the 
Nicaragua--when they were removed from power, there was a 
relatively free system established in those countries. And when 
they left, came back into power, Mr. Ortega, all of a sudden 
people began being murdered. And that is something--I am very 
proud that the Reagan administration did take the moves to make 
sure that Mr. Ortega and his communist dictatorship was removed 
and replaced by a democracy.
    With that said, thank you very much for your service.
    And I do not believe that the President--again, the 
criticism that the President is hollowing out the State 
Department is ridiculous. The fact is that if he was hollowing 
it out we would be complaining that he is putting his own 
people in. Well, when you have people with the expertise, like 
yourselves, who are still in position that the President hasn't 
replaced yet, that is not something people with an open mind 
should complain about.
    Thank you very much, Mr. Chairman.
    Chairman Royce. Thank you.
    We will go to Karen Bass of California.
    Ms. Bass. Once again, thank you, Mr. Chair and Ranking 
Member, for holding this hearing.
    I wanted to talk about the situation in Central America and 
specifically would like to focus on El Salvador.
    I was listening to your responses, Mr. Ambassador, about 
what we are doing to address the root causes, and it seemed as 
though your focus was a little bit on law enforcement. And we 
have spent a lot of time trying to address violence and crime-
related issues with a strictly law enforcement strategy in the 
United States, and it hasn't fared very well, so I wanted to 
know what you have done beyond law enforcement.
    And I focus on El Salvador because there is a lot of 
discussion about MS-13, Mara Salvatrucha, which is a gang that 
started in my city, Los Angeles, and we exported this problem 
to El Salvador. And so I want to know what responsibility we 
are taking for our contribution to the problem in El Salvador.
    Ambassador Merten. Thanks for the question. And I think an 
element of this here should be fielded by my colleague from 
USAID.
    Our Central America strategy, yes, it has a component of 
law enforcement to it, but it is also designed to address the 
root causes of why people are leaving these countries and--or 
why they seek to leave.
    And this involves working with governments to improve the 
business climate, the investment climate, to create economic 
opportunity. My colleagues at USAID and at our economic 
sections in our Embassies are working to help these countries 
attract investment, attract and grow their economies so that 
people have less reason to have to leave.
    Ms. Bass. Right, which is a catch-22, because it is hard to 
do that with the gang violence.
    So I want to know, since we exported the problem to El 
Salvador, I was wondering if we also exported some of our best 
practices. We actually do have best practices, in the United 
States, of how to address gang violence. There are a lot of 
examples of gang violence being reduced in a number of 
communities. Unfortunately, we have not really taken a 
sustained investment in communities, which is why we still have 
the problem.
    So my question is: Are we exporting also some of our best 
practices in how to reduce gang violence?
    Ambassador Merten. Well, one of my colleagues from the 
Bureau of International Narcotics and Law Enforcement would be 
better equipped to answer that. We can take that back and get 
you an answer as to what specifically we are doing regarding 
gang violence in El Salvador, but----
    Ms. Bass. Okay. That is great. I would appreciate that.
    Let me move on to another subject, because, like all of my 
colleagues--and I am sure all of us in Congress are deeply 
concerned about these children. And I am concerned that many of 
these children will never be reunited with their parents again. 
And so there is a number of examples of parents who are 
deported and then not being able to find their children since 
we did this in such a haphazard way.
    And my colleague over there, Mr. Rohrabacher, when the 
Obama administration had the problem of unaccompanied minors, 
which is different than taking children away at the border, 
there was a big outcry about that and what was happening with 
those children.
    But my question is, I have heard of numerous examples of, 
when the parents are deported, number one, if they are 
fortunate enough to find their children, then what we are 
saying is now you have to pay $1,500 to transport your child 
and a guardian to get your children back.
    And so I want to know if, in the budget of USAID, the State 
Department, somewhere--it seems as though if we take the 
children away, then our government should be responsible for 
reuniting those families. So I am introducing legislation that 
makes our government responsible.
    I am also very concerned that the children that are put in 
is time-limited. And so, if you languish in foster care for 
more than 18 months, parental rights can be terminated, which 
is why I am worried that some of these children may never find 
their parents again.
    And so I want to know if, within the budget of USAID, you 
are considering setting money aside to help facilitate the 
reuniting of these children that we took away.
    Ms. Lynch. Great. Thank you.
    All of our funding is dedicated to working in the countries 
of the Northern Triangle on this issue----
    Ms. Bass. Right. So the question is, are we setting aside 
money so that we don't charge the parents? We took the children 
away, and now we are charging them to get their own children 
back.
    You also mentioned, Mr. Ambassador, an information campaign 
to let people know not to come over here because we take their 
children. And I am wondering if that is a massive PR campaign 
on radio, on TV, social media, or are we just doing it one by 
one?
    Ambassador Merten. I think what I said or certainly what I 
meant to say was that our public diplomacy in all countries is 
to encourage people to travel to the United States, whether 
that is as a tourist, as a student, or as a legal migrant, to 
come and travel, to use legal methods to do so. We----
    Ms. Bass. Are we telling them that we are going to take 
their children?
    Ambassador Merten. I don't believe we are telling them 
that.
    Ms. Bass. Yeah.
    Ambassador Merten. We are telling them that they need to 
avail themselves of legal routes of travel and legal routes--
should they qualify as immigrants, that they should pursue 
legal ways to do that.
    Ms. Bass. This is going to go down in our history as a real 
moment of shame.
    Thank you. I yield back my time.
    Chairman Royce. We go to Joe Wilson of South Carolina.
    Mr. Wilson. And thank you, Mr. Chairman.
    And, as I begin, I want to thank the statements of 
Congressman Albio Sires. His thoughtful observations are a 
fulfilment of the bipartisan promotion of democracy in the 
Western Hemisphere, which really reflects the bipartisanship--
usually, not always, as we just saw--of this committee. So 
thank you very much for your service.
    Sadly, American diplomats, in 2016, were subject to 
unexplained sonic attacks in Cuba. The Cuban dictatorship 
continues to deny knowledge or involvement in the attacks, but 
it is in a totalitarian regime with heavy static surveillance.
    What is the status of the investigation? Have we been able 
to determine the cause and source of the attacks? When can 
Congress expect a thorough report on the cause of these 
attacks?
    Ambassador Merten. Thanks for the question. As I mentioned 
earlier, this is something we find very troublesome at the 
State Department.
    The Deputy Secretary chairs a task force which is made up 
of various elements of the State Department but also has an 
interagency component as well. We have ongoing FBI 
investigations. FBI has traveled on a number of occasions to 
Cuba to investigate the sites where this has happened. Our 
Diplomatic Security agents in the State Department are 
investigating. We have other elements who are participating now 
in this task force, like CDC and others, who are really 
examining all the data that we have thus far been able to bring 
together.
    But, as of today, we still do not know what the cause of 
this is nor who is responsible.
    Mr. Wilson. And I would tell you, with the technology we 
have today, Ambassador, this should be determined. And so I 
hope you will make every effort to proceed.
    The next question: I am grateful to have been co-chair of 
the Partners of the Americas program with the nation of 
Colombia from South Carolina. And we have hosted students from 
Colombia to live with us. Two of my sons were in an exchange 
program to a high school in Colombia. What an extraordinary 
country it is.
    I know that we are assisting Colombia in achieving lasting 
peace while also combating criminality and narcotics 
trafficking. The election of Ivan Duque gives the U.S. a 
reliable partner in combating cocaine production and a modified 
approach to the peace process.
    What do you see USAID or the State Department doing to 
promote peace and security for the people of Colombia?
    Ms. Lynch. Yeah. USAID's program is focused very much on 
peace. And, in fact, we work predominantly in helping the 
Colombians and supporting their efforts to extend State 
presence in some of the areas that have not seen a government 
in sometimes decades. So we are actually working in over 50 of 
the hardest-hit communities in Colombia to help the Colombians 
provide the local institutions that can provide basic services 
to people as well as improve the environment to improve the 
rural economy.
    Specifically, when we work jointly with State Department 
INL, they on eradication and us on alternative development, it 
works extremely well, where the coca crop is eradicated, and 
then we come in with opportunities and an enabling environment, 
again, to have solid economic opportunities, jobs for people in 
the licit economy.
    Mr. Wilson. Well, again, thank you. And what an 
extraordinary nation of 40 million people in Colombia.
    And then, sadly, another country that was dynamic, was 
democratic is Venezuela. And we now see the consequence of what 
Margaret Thatcher said, and that is that socialism will work 
until you run out of spending other people's money. And so now 
they have converted one of the wealthiest countries, one of the 
most dynamic in South America into a destitute, poverty-
stricken, authoritarian regime.
    And so I am really grateful for the sanctions by the 
President. What more can be done to try to help the people of 
Venezuela?
    Ambassador Merten. Well, as we talked earlier, we are, with 
colleagues at USAID and the State Department Bureau of 
Population, Refugees, and Migration, providing humanitarian 
assistance to those people who have been driven out of 
Venezuela. We have regular outreach at the Embassy with the 
opposition parties, encouraging them to get unified and form a 
unified opposition to the Maduro government. You know, we have 
applied targeted sanctions to government officials and to 
Venezuela.
    And we are working with our partners in the region. We have 
pretty much, I would say, unprecedented support of other 
countries in the region who really share our concern at what 
they see is a rich and democratic country descending into 
abject poverty and to effective dictatorship.
    Mr. Wilson. Well, thank you again. And working on behalf of 
the people of Venezuela, mutual benefit to the hemisphere. 
Thank you.
    Chairman Royce. Mr. Bill Keating of Massachusetts.
    Mr. Keating. Thank you, Mr. Chairman.
    The President has made it very clear and the administration 
has made it clear, the threat of MS-13 and the gang violence 
that is present in countries like El Salvador. This has been 
echoed in Homeland Security, of which I am also a member, where 
the administration officials have clearly said how dangerous 
and violent it is there and what danger it represents.
    So I am going to just address--a couple of the 
administration's responses to this simply don't make sense.
    For instance, when it comes to the parents and their 
children fleeing this terrific violence in El Salvador, the 
President's response was to separate the children from their 
parents, traumatizing them, deporting them back to the crisis 
that they fled from.
    One of these people, Jessica, had two sons taken from her 
when she crossed in Texas in March. They were separated for 3 
whole months. Jessica fled the brutal violence of El Salvador. 
She and her sons received death threats from MS-13, and she 
herself was beaten in front of her children by gang members. 
Yet that is one response, is to separate the children.
    The other one that just does not have any semblance of 
consistency is to move forward on ending the TPS program for 
those countries like El Salvador that have--those countries 
have hundreds of thousands of people here legally. And they are 
being sent back because it is safer now?
    There is a definite contradiction with sending these 
people--many of them have been here for years legally to escape 
that violence--sending them back because now it is safer, yet 
at the same time the administration is saying what an enormous 
threat it now is becoming.
    How can you reconcile such contradictions? These things 
simply don't make sense. They contradict each other, by their 
own definition.
    Ambassador Merten. Thanks for the question.
    As I mentioned earlier, what our goal at the State 
Department is, in our view, is that we need to help these 
countries address the root causes of these problems. In that 
analysis, the root causes are corruption, impunity, lack of 
economic opportunity for people, lack of effective judicial 
systems, lack of effective law enforcement.
    Our Central America strategy, for which Congress was 
generous enough to give us $2.6 billion from 2015 to 2018, is 
working in all these areas in those countries----
    Mr. Keating. Okay. I apologize for interrupting, but where 
you are going is to the root causes. That is great. But there 
are present dangers. Well, we could deal with the root causes 
of MS-13, but the President and the administration, they are 
not talking about the root causes of MS-13; they are talking 
about the present danger. The same kind of timeline should be 
used when you are looking at the present danger of these 
people.
    So I know what you are saying in terms of root causes, but 
you are avoiding the contradiction that is quite clear, that 
one, these two instances of the response to this kind of 
violence contradict the fact that the violence is there that 
they are escaping from. You can't have it both ways. So I want 
you to address not just the root cause but the present danger 
in that contradiction.
    Ambassador Merten. Again, we work with the tools that we 
have, both in USAID and the State Department, and these are the 
tools that we have to address these issues. If you are talking 
about other issues such as TPS, that is a decision that is 
taken by the Department of Homeland Security. They have made 
that determination.
    Mr. Keating. Well, I just think there should be better 
coordination. And I sort of echo, actually, the gentleman from 
California who said those are issues for Homeland Security, 
sure; they are also issues for Foreign Affairs, and they are 
also issues for State.
    Just quickly, I would like to echo the concerns in terms of 
the violence in Nicaragua as well. People like Father Jose 
Alberto Idiaquez has had his life threatened. He has been 
targeted because of his work through the Jesuits and through 
education. And I want to make sure people that have been 
targeted, that that be known to everyone.
    With that, I would like to yield 40 seconds to my colleague 
from California, Mrs. Torres. Thank you.
    Chairman Royce. We go to Mr. Ted Poe of Texas.
    Mr. Keating. No, no----
    Mrs. Torres. He yielded me 40 seconds that he had.
    Chairman Royce. Oh, yeah, that is right. Somebody was going 
to give you extra time. Norma Torres of California.
    Mrs. Torres. Thank you, Mr. Chairman. I have to be on the 
floor at 12 noon to present on a rule.
    I want to thank the Department of State and specifically 
the White House in continuing to support CICIG in Guatemala 
specifically.
    While I agree that we should demand fair treatment for all 
refugees in Guatemala and here in the U.S., too, I hope that we 
don't lose sight of the significant progress that CICIG has 
made, not just carrying out investigations but also helping to 
bring about important reforms and strengthening Guatemala's 
institutions. That progress is real, and turning back that 
progress, in my view, is a big mistake.
    Ambassador Merten, I had nine questions--they were ``yes'' 
or ``no'' questions--for you regarding how the State 
Department--which I have accused in the past of head in the 
sand with the certification process in Honduras and now in 
Guatemala. Because of the lack of time that I have, I will 
submit them for the record, as well as a longer statement on 
CICIG.
    I do hope that you will respond to me. The certification of 
Guatemala after the ongoing problems with the Congress trying 
to impugn themselves for their criminal behavior in stealing 
the purse of the people, to me, is something that we should be 
more careful about in how we go about. At the end of the day, 
us here in Congress have to be accountable, and we have to have 
a transparent process on how taxpayers' dollars are being 
spent.
    And, with that, Mr. Chairman, I yield back.
    Chairman Royce. Would the gentlelady yield?
    Mrs. Torres. Yes.
    Chairman Royce. Because I would like to add a quick 
observation here as well. Because, as our witness stated 
today--and I think Ambassador Nikki Haley reinforced this 
during her trip to Guatemala in February--CICIG is providing 
critical assistance to advance justice, accountability, and 
stability in the region. That is not an easy task. It is bound 
to be controversial. But CICIG is successfully chipping away at 
the culture of corruption.
    That said, there was an issue that was raised here by Mr. 
Smith. And, as we know, the consequence of that has been 
adjudicated through the courts there in Guatemala, and that 
family is freed.
    This committee will continue to work, as I said, with the 
Senate, with the State Department, with the USUN on reforms 
that will preserve the essential functions of CICIG while 
responding to legitimate criticisms of overreach.
    And, with that, I think, without objection, the 
gentlelady's questions are going to be submitted to our 
witnesses, and we will go to Ted Poe of Texas. Thank you.
    Mr. Poe. Thank you, Mr. Chairman.
    Thank you all for being here.
    As the chairman mentioned, I am from Texas. We have a very 
strong and longtime history with Mexico, back even to the days 
of the 1500s when Mexico and Texas were part of Spain, or at 
least Spain claimed the territory. I am a great believer in 
trading with Mexico. Ten thousand 18-wheelers a day cross back 
and forth on our southern border. Thousands of people from both 
countries cross the border.
    And I think that the United States, as a Nation, needs to 
refocus our attention to our next-door neighbors. I mean, we 
are all over the world. There are 190-something countries, and 
we are in most of them. I am not saying that is a bad idea. I 
am saying that we need to focus on our next-door neighbors--
Mexico, Canada--and then, of course, all of Latin America.
    I see, as many Members of Congress have pointed out, that 
things are not good in the hemisphere from Mexico south: 
Corruption, incompetence, violence, and humanitarian problems 
with the nations. And, as Mr. Sires pointed out, I think things 
are getting worse. I don't think they are getting better. I 
think they are getting worse.
    So, I mean, that is my position. As some other Members 
pointed out, I am a believer in NAFTA. But let's talk about 
some of the issues specifically with Mexico. There are a lot of 
foreign workers in the United States from Mexico.
    Going back to 2003, when Vicente Fox was President, he made 
this comment that was recorded in the San Diego Tribune: 
``Twenty million Mexicans in the United States generate a gross 
product that is slightly higher than the $600 billion generated 
by Mexicans in Mexico. Remittances are our biggest source of 
foreign income--bigger than oil, tourism, or foreign 
investment.'' That was in 2003.
    Most recently, the Pew Research organization has listed how 
much remittances from the United States go to other countries--
in other words, foreign nationals working in the U.S. sending 
money back home. No surprise, Mexico is the number-one country 
that receives remittances from their workers in the United 
States back to their country, $28.1 billion, according to the 
Pew Research organization.
    Surprising to me--another issue--China is number two as far 
as remittances go.
    So we are talking about $28.1 billion for Mexico. Total 
amount, $138 billion a year of remittances go back to foreign 
countries by their workers working in the United States. And my 
understanding is, today, remittances are the number-one source 
of revenue to Mexico except maybe for the sale of autos. So 
tourism and sale of oil is still behind remittances.
    So we are sending a lot of money, economic development 
money, from the United States to Mexico and a lot of other 
countries. It is no surprise that the Mexican Government has 
long supported more people coming to the United States by any 
means so that remittances can go back to their nation.
    So my question is--and this has been brought out by the 
administration as well. If we just think this through, if we 
can use the phrase ``subsidize'' these countries all over the 
world, shouldn't the United States charge a fee, 1 percent, for 
these transactions to occur--specifically, foreign workers in 
the U.S. sending money back to Mexico and any other country 
where those remittances go each year. So that part of that 
income generated in the United States stays in the United 
States, that the taxpayers don't have to pick up the difference 
of that $138 billion, with a small fee--1 percent, 2? It makes, 
to me, no difference.
    My question is, what is your opinion of that, Ambassador?
    And then I will ask Ms. Lynch what your opinion is.
    Ambassador Merten. Well, I think that is an interesting 
thought. I don't think it is--I think that could be potentially 
a subject for legislation should you decide to go that route.
    I will say, there are other countries in the hemisphere 
that do tax remittances as they come in. Haiti is an example of 
that in the case that I know of. Beyond that, I don't think I 
would choose to comment.
    Mr. Poe. Okay.
    Ms. Lynch, have you got an opinion? I am about out of 
time--I am out of time.
    Ms. Lynch. I also think it is very interesting. I think we 
would have to do further analysis. I know sometimes remittances 
are something that we look at as a way that we reduce foreign 
assistance. But we would be happy to look into this and analyze 
it.
    Mr. Poe. All right. I think Congress ought to consider that 
strongly so we can keep some of that money in the United 
States. One hundred thirty eight billion dollars, that is a lot 
of money even for us, you know.
    Thank you, Mr. Chairman.
    Chairman Royce. Thank you.
    We go to Greg Meeks of New York.
    Mr. Meeks. Thank you, Mr. Chairman.
    There was this--I found out about a Mr. Nazario Jacinto-
Carrillo and his daughter, Filemona. His daughter was 5 years 
old. They fled to California from their village in the western 
highlands of Guatemala. Nazario was fleeing a local gang that 
had threatened to kill him.
    Nazario and his daughter encountered a Border Patrol agent 
and were promptly arrested at a Border Patrol station in Campo, 
California, and Nazario was told that he would be sent to jail.
    Filemona, his 5-year-old daughter, was taken by Border 
Patrol agents. Nazario said, ``My daughter was screaming and 
crying, and so was I.'' Filemona was put in custody of the 
Office of Refugee Settlement, and she was transferred to my 
State, New York.
    Nazario subsequently abandoned his asylum claim and was 
flown back to Guatemala. And in the 5 weeks he spent in U.S. 
custody, he was never once able to speak to his daughter.
    Now, I visited a facility in New York, and one of the 
things that was noted to me, that each and every one of the 
children that they had there also had their birth certificate, 
which tells me that they were not just trying to sneak in, they 
were truly trying to seek an asylum so they could have a 
hearing because they were running from danger. They wanted to 
stop to see a Border Patrol so that they could go through a 
hearing. They had some evidence of who their kids were. But 
they were treated like criminals.
    In fact, one of the children that was examined by the 
doctor, we were told, thought they had a toothache, but, upon 
further examination, what was in the child's mouth was pellets 
from a bullet. That is what they were fleeing from.
    So sometimes I do feel inappropriate asking you questions, 
because I really do acknowledge you and the service you have 
given our Nation in the State Department and the diplomacy. And 
watching you--and I know you have to answer some of these 
difficult questions.
    The problem is I think that the President of the United 
States doesn't understand diplomacy and the value of the State 
Department. In fact, I was looking at him today when he was--
and international organizations--when he was over talking to 
NATO, making all kinds of horrendous statements and separating 
us from our allies there. I couldn't help but see the pain on 
Ambassador Kay Bailey Hutchison when she had to admit this was 
right up Putin's alley, what was going on, and looking at 
General Kelly as he was looking away and drinking water and 
drinking water and drinking water as the President was making 
his statement.
    I say all that because my question to you is going to be 
about the United States and our affiliation with the OAS and 
the terms of the international American Declaration of the 
Rights and Duties of Man, which obligates the states of the 
Americas to protect the right to life, liberty, and security 
for every human being and to give protection to families and to 
grant all children the right to special protection, and, we 
know, where a member of the OAS has filed a complaint to the 
OAS's Inter-American Commission of Human Rights concerning this 
administration's zero-tolerance immigration policy.
    So my question to you--and I know sometimes the President 
doesn't believe in multilateral and international 
organizations--does the Trump administration plan to respond to 
the OAS member's complaint to the OAS? Do you know?
    Ambassador Merten. Sir, I am unfamiliar with that specific 
issue. I am happy to take that back to my colleagues and get 
back to you with an answer on that.
    Mr. Meeks. Okay. Thank you. And that is probably something 
that might be--again, as I said, it is difficult for me to 
question you because I know of your work. And some of it may be 
more appropriate for some other members of the administration.
    I think we touched on this--and, again, to Ms. Lynch, who 
is the Senior Deputy Assistant Administrator, I agree with you 
and the work that Administrator Green is doing and what the 
USAID does all over the region, and you are addressing the root 
cause of the problem.
    But these deportation--whether it is DACA or TPS, sending a 
lot of these folks, DACA kids who have never been there before, 
sending them back, does that help our relationship and the work 
that you are doing in trying to deal with the root causes of 
the immigration problem that we have at the border now?
    Ms. Lynch. Thank you for the question.
    We work very much within those countries, so within the 
Northern Triangle, in partnership with the interagency and also 
the host countries. So our role is really to support the host 
country and their efforts in receiving some of these folks.
    And so we have worked in the reception centers and through 
the International Organization of Migration, IOM, and working 
with them to refurbish those centers and also make sure basic 
services are available to folks, with the ultimate goal that 
they would return to their host and home communities and there 
would be institutions there that would be stood up to also 
provide basic services and economic opportunities.
    Mr. Meeks. I thank you for your service.
    Chairman Royce. Ted Yoho of Florida.
    Mr. Yoho. Thank you, Mr. Chairman.
    And I appreciate both of you being here.
    This is a timely hearing on the Western Hemisphere. I think 
we have pivoted away from not just the last administration but 
the last 15, 20 years, and it is time that we really put an 
emphasis on there, whether it is energy security for our 
Caribbean nations like Puerto Rico, our territory, or the U.S. 
Virgin Islands or other Caribbean nations. Instead of them 
getting their energy from Venezuela, we are implementing energy 
from North America and allowing us to break the ties from 
Venezuela. And I think this is something that is imperative 
that we do.
    But I hear over and over again--and, Ambassador Merten, you 
were talking about better governance. We have to do more. Ms. 
Lynch, you were talking about we have to do more and help these 
economies in that.
    The numbers I have pulled up, Central America, from Mexico 
down to Panama, there is roughly 171 million people. Over the 
course of the last 10 years, we have given $5.746 billion in 
foreign aid to El Salvador, Nicaragua, Guatemala, Honduras, 
Mexico, and Panama--$5.746 billion.
    People are leaving the Northern Triangle because of poor 
governance. We are putting money into our aid programs--USAID, 
MCC, OPIC, other organizations--to get good governance, to get 
economic development in those countries, yet we are not getting 
the return on that.
    I would like to hear from both of you, what would you do--
we have to do something different. We can't do the same thing 
over and over again. And if I throw in the war on drugs, we 
have spent over $2 trillion since the 1970s on the war on 
drugs. And I think we are all convinced we are not winning the 
war on drugs, especially when you have Mexico with 72,000-plus 
acres of poppy fields, which goes right into heroin, which 
comes right into my country. And then you look at Colombia has 
more coca planted today than we did with the drug cartels.
    And so I want to know from you, what do we need to do as a 
Nation, more specifically this committee, to direct foreign 
policy so we get good governance, we get a better economy, and 
we get allies that are on board with us that seriously want to 
fix this problem?
    Ambassador Merten?
    Ambassador Merten. Thanks for the question.
    And we certainly share your concern about all of the above, 
I think particularly the concern about the drug issue, which I 
will briefly talk to.
    We have developed a good level of cooperation with Mexico, 
and one of the things that Secretary Tillerson started was 
discussions with Mexico on how we can work together to stop 
these transnational criminal organizations----
    Mr. Yoho. Let me ask you that, because we were down there 
with the chairman a couple years ago, and we want them to get 
better on their drug cartel and the drug production, but I 
didn't see the want and the desire there as much as we did. How 
do we get the desire with them? Do we pull money back? Do we 
threaten that? Do we threaten to block trade?
    Because we are not getting the results. And I hear what you 
are saying. Yeah, we want them to do this.
    Ambassador Merten. Yep. We have a new government coming in 
Mexico in 5 months, a new President who has just been elected 
who will take over. Secretary Pompeo will be traveling there in 
the coming days, along with Secretary Mnuchin and Secretary 
Nielsen. We are going to start up those discussions again with 
this new government----
    Mr. Yoho. What is going to be different about those 
discussions?
    Ambassador Merten. Well, I think we have a new government 
to work with. We have to see where we can have leverage with 
them and what their interests are.
    Mr. Yoho. I feel like we have the cookie that they want. 
You know, they want to trade, they want the access to our 
markets. I think we need to play hardball different than we 
have.
    Ms. Lynch, what are your recommendations?
    Ms. Lynch. Right. I do think we have considerable successes 
in the region, specifically I will talk about in Central 
America, where we see on the governance side, for example, we 
see the governments of these countries putting their own 
resources against some of the objectives and goals that we 
mentioned at the outset----
    Mr. Yoho. Define ``success.''
    Ms. Lynch. Success is when a government--I would say it is 
three things: When a government puts its own resources to these 
issues, when the private sector invests, and when civil society 
acts as a watchdog and can hold their government accountable.
    Mr. Yoho. Which countries are you talking about?
    Ms. Lynch. I think we are seeing some of these successes in 
all of the Northern Triangle countries, whereby with our U.S. 
Central America strategy, they proposed a similar strategy, the 
Alliance for Prosperity, which aligns very well with ours.
    Mr. Yoho. Are we seeing a decrease in crime, a decrease in 
migration to our country?
    Ms. Lynch. Honduras is a good example, again, where we work 
very closely with the interagency and with the Government of 
Honduras. In one area, the Riviera area of San Pedro Sula is a 
good example where INL works on the law enforcement side, we 
work on citizen security side, and, together, yes, we have seen 
in past years the homicides reduced by over 60 percent there. 
So that is----
    Mr. Yoho. I am out of time. I wish we had more time to talk 
to you. I appreciate both you being here. I hate to be so 
abrupt, but limited time. I would like to talk to you further.
    Mr. Chairman, I yield back.
    Chairman Royce. Lois Frankel of Florida.
    Ms. Frankel. Thank you, Mr. Chair.
    First, I want to thank both our witnesses for being here, 
and thank you so much for your service. And, please, my 
comments are not really directed at you, and I have a lot of 
respect for what USAID does and the development that the State 
Department takes part in.
    So, first, I want to start with, I guess, sometimes I think 
I am just living totally in a bad episode of ``Saturday Night 
Live.'' I happen to represent beautiful Palm Beach, where Mar-
a-Lago sits. And very interesting: Donald Trump asked 
permission to hire 78 foreign workers at Mar-a-Lago for the 
season. Doesn't he think there were American workers who could 
take those jobs? Oh, well. I thought that was very interesting.
    Anyway, on to another point which I think is actually much 
more important, which is the fact that we are witnessing what I 
call a Trump-induced crisis at our Mexican border. We have 
heard many people comment on this, but I am going to say it 
again, because until these families are united I am not going 
to shut up about this.
    Mothers and fathers who are seeking refuge from extreme 
danger and persecution, they finally think they come for 
refuge, and what do they do? They get to our border and this 
government steals their children right out of their arms.
    And you know what is happening now? Our government is so 
incompetent and so uncaring that they can't even match up most 
of these children. This is going to be a dark stain on this 
country, with what is going on here.
    I went to the border a couple weeks ago with some other 
Members. And look, I am the granddaughter of an immigrant. 
Probably everybody here is either the granddaughter or the 
grandson of an immigrant, right? And what I saw was 
heartbreaking.
    And I am just going to talk about meeting with the mothers, 
listening to their excruciating crying because their children 
were taken from them, they hadn't seen them, didn't know where 
they were. And one woman told me that she was told she was 
going to go to court for 48 hours, and then it is a month later 
and she didn't even know where her child was.
    The other day, I had a little roundtable at the Guatemala 
center where I live. And they do wonderful work there. And I 
heard from a young woman who told me that her cousin came over, 
fleeing from gangs and violence in Guatemala, got to the border 
with her 10-year-old son. The 10-year-old son is now in 
Homestead, in Florida, and guess where the mother is? She was 
deported back to Guatemala.
    Now, I just got a little--you know, it is a good thing you 
get these little alerts from your phone. This is what is 
happening now. Listen to this one. One mother had waited 4 
months to wrap her arms around her little boy. Another had 
waited 3 months to see her little girl again. And when it 
finally happened Tuesday in Phoenix, the mothers were met with 
cries of rejection from their children. The children didn't 
even recognize the mothers. They were screaming for the 
caseworkers.
    And what I heard yesterday at this roundtable from child 
professionals, psychologists, was the trauma that these 
children--toxic trauma that these children are experiencing. 
Well, we can see that right now. Could you imagine? They don't 
even know who their parents are.
    So here is what I want to say. I mean, a lot of the 
questions I was going to ask have been asked and answered. I 
want to thank you for that. But I think there is no question--
and I want to say this--building a wall is not going to solve 
the problem. Separating children inhumanely from their parents 
is not going to solve this problem. We have got to get into 
these countries and do the work.
    And I just saw that there is a proposal now to cut $180 
million in funding for Central America. To me, that is just 
dumb, all right? That is really dumb.
    I don't have to ask you what you think about it. You are 
good people. I am not going to force you to answer that.
    But, Mr. Chair, I just want to conclude by saying that we 
have to step up our efforts to try to get to the root causes. 
And we need immigration reform that the Congress is responsible 
for, and we should do that as soon as we can.
    And thank you for patiently being here with us today.
    Chairman Royce. Thank you, Congresswoman Frankel.
    We go now to Adam Kinzinger of Illinois.
    Mr. Kinzinger. Thank you, Mr. Chairman.
    This is an important hearing. And I am sure there are other 
hearings where my colleagues on the other side of the aisle can 
discuss their desire to abolish ICE, but this is very important 
issues on the Western Hemisphere.
    With a lot of the issues we are seeing on the border, I 
think it drives home the importance of motivating people to fix 
their own countries and live in a better situation. If you look 
at our friends in Colombia, for instance, they went through 
decades of very difficult times and, with a little help from 
the United States and a lot of desire from their internal 
community, have really been able to not only just overcome 
their problems but also be a refuge for people in tough areas 
like Venezuela.
    That is a good example of how we should be handling this 
issue so that the issue on the southern border does not 
continue to haunt us, and, frankly, we don't have to abolish 
ICE in the process as some of my friends want.
    Since September 11th, our security focus has been primarily 
geared toward the Middle East, where we have spent the past 17 
years combating Islamic extremism. And, during these years, 
many of our neighboring countries have faced political and 
economic instability and domestic insecurity. As a result of 
this instability and insecurity, thousands of people have 
migrated north and have arrived at our doorstep.
    And, as I have mentioned before, I have worked with ICE, as 
a member of the Air National Guard, as well as Customs and 
Border Protection officers on our southwest border, and I know 
firsthand how those insecurities not only affect our Nation's 
security but also how they endanger the lives of those 
traveling north in search of freedom. And that is why it is 
imperative we regain focus on our own hemisphere.
    And I believe if we can establish a more stable and secure 
Western Hemisphere we can usher in an era of prosperity that 
has never been seen before. And I would like to briefly touch 
on a few of those countries.
    We have talked a lot about Venezuela. It has been the 
problem child of our region for the past two decades. In May, 
we watched as the corrupt Maduro regime swept the country's 
Presidential election, which had been called fraudulent by the 
U.S. and our global partners.
    Last Congress, I introduced legislation that passed in the 
NDAA and would enhance the State Department's capabilities 
through the Global Engagement Center to identify and respond to 
propaganda and disinformation.
    So, Mr. Merten, given Venezuela's prosecution of political 
opponents and restriction of freedom of expression, can the GEC 
be used to amplify peaceful protests while highlighting the 
mass human rights abuses occurring in Venezuela? And what other 
tools do you have to handle that?
    Ambassador Merten. Thanks so much for the question.
    We have not been at all shy about calling out the 
Venezuelans and drawing attention to their abuse of the 
regime's abuse of its own people. And we have done that in 
various fora, not least in the Organization of American States. 
And just at the recent summit here in Washington at the OAS, we 
were able to get an unprecedented resolution in support of 
members of the OAS condemning Venezuela and putting them on a 
path to, perhaps, eventual suspension from that organization.
    Again, we will not be shy. We have used targeted sanctions 
to focus on those people who are responsible for tormenting the 
Venezuelan people and----
    Mr. Kinzinger. Can you answer, though, specifically about 
if you see a role for the Global Engagement Center in this 
area?
    Ambassador Merten. I am not an expert in that particular 
thing, and I will be happy to take that back and get you an 
answer on that.
    Mr. Kinzinger. And when you talk about what has been done 
in OAS, can you talk about the benefits of removing Venezuela 
from the OAS that you see?
    Ambassador Merten. We have discussed that, as I said, in 
the resolution, that was passed by unprecedented support of 
countries representing over 90 percent of the population of the 
hemisphere, that puts us on a path to consider suspending 
Venezuela from the OAS.
    Mr. Kinzinger. And after Argentina's economic collapse in 
2001, we saw anti-American administrations, led by populist 
regimes, drive the country in and out of economic despair. 
However, in 2015, under the new leadership of a pro-West, pro-
business President, the Argentinian Government settled their 
debts and opened Latin America's third-largest economy for 
business. There is still a lot of work to do, specifically in 
helping the country's poor and combating a growing 
narcotrafficking network, but Argentina is showing a lot of 
promise.
    Supporting governments in Latin America that shun socialist 
and repressive policies and support Western values should be 
one of our top priorities. But what concerns me is that, in the 
past, Argentina has clawed out of an economic collapse only to 
spend more money than they are able to collect through taxes 
and trade, resulting in new depressions.
    So does State or USAID have any programs geared toward 
economic growth or making that government more efficient in how 
they spend their money?
    Ambassador Merten. Well Argentina has a relatively new 
President that we have engaged with, and we are very supportive 
of his market-oriented reforms.
    I think, in our analysis, that, absent reforms generated 
from inside the country, that realizing their own shortcomings 
in previous legislation and mistakes that they have made in the 
past is the way that they are going to find the proper way 
forward. So we are very optimistic about their approach to 
resolving their own problems.
    Mr. Kinzinger. Thank you.
    I yield back.
    Chairman Royce. Mr. Castro.
    Mr. Castro. Thank you, Chairman.
    Thank you both for your testimony today.
    Many Americans and many around the world have been shocked 
by the Trump administration's use of family separation, 
separating young kids from their parents, as a deterrent--what 
the administration would consider a deterrent to having people 
attempt to come here, including those who are seeking asylum, 
legally, to the United States.
    And a few weeks ago now, I was one of the Members of 
Congress who went down and visited two of the centers who are 
keeping these kids. One of them is what is called a tender-age 
shelter, and it is called Casa Presidente in Brownsville, 
Texas. And myself and Sheila Jackson-Lee and a few others held 
an 8-month-old named Roger who had been separated from his 
family, and the staff told us they believed that he came with 
his sister because his mother had died. There was a 1-year-old 
girl named Leah who was also in the room with us.
    What role does the State Department play in the 
reunification of these young children?
    Ambassador Merten. Sir, thanks for the question.
    And as I believe I have said in earlier questions similar 
to this, we work in countries with our host governments, we 
work in places like Central America to try and eliminate the 
root causes of this. In terms of----
    Mr. Castro. Well, but I mean specifically when parents--
some of these parents have been deported now. Is the State 
Department involved, if they are back in the Northern Triangle 
countries, in trying to get their kids back? Is the State 
Department involved at all? Because HHS is not in Guatemala or 
Honduras or El Salvador.
    Ambassador Merten. I will be honest with you, I am not sure 
that our consular officials are involved in that process. I can 
take that back and get you a clearer answer on that, but I am 
unaware of that.
    Mr. Castro. I hope that you will. And I will submit my 
question for the record, because I would like to know if the 
State Department that deals with other nations and, of course, 
our domestic agencies here, whether they can represent to the 
American people that none of these children has died or been 
severely injured while in the custody of the United States 
Government. That is my question.
    I would also like to echo the comments by Ranking Member 
Engel and also my colleague Congresswoman Torres about CICIG 
and the work that it is doing to fight corruption in Guatemala. 
And although I think it is fair to always be critical of any 
organization and take a critical look, I think it is important, 
when we think about helping these countries get back on their 
feet, to make sure that we have an organization that is trying 
to root out corruption and really restore the rule of law.
    Let me ask you this, because Congressman Kinzinger spoke a 
minute ago about making sure that countries fix the things that 
are wrong with themselves. And I agree. I think that the best 
antidote to having many people want to come to the United 
States who are undocumented is to make sure that the 
economies--to work with the nations to the south to make sure 
that the economies there are strong.
    But let me ask you, if you are Mexico and there is the 
United States and an incredible demand for drugs coming from 
the United States, what strategy is going to be successful to 
completely root out the trafficking of drugs to the United 
States, where you have a huge demand for it?
    And because Mexico is not Colombia, which, obviously, is in 
South America, but has basically got a 2,000-mile border with 
the United States, so, in other words, geographically, it is a 
central country for drug trafficking routes, how do they combat 
that?
    Ambassador Merten. This is not exactly an area that I have 
expertise in the terms of domestic demand. My understanding is 
that the administration is putting together policies to look at 
fentanyl and look at ways that we can reduce people's use of 
these drugs.
    In terms of working with other countries, which is where we 
operate, the State Department, we have excellent cooperation 
with Mexico and with other countries in the region, including 
Colombia, to work with them, to reduce the amount of these 
things that they produce, that they prosecute those who are 
responsible. As I mentioned earlier, we have this working group 
with the Mexicans on combating and Central Americans combating 
transnational criminal organizations. This is ongoing work. It 
is important work, and we believe we are hopeful that it will 
ultimately be successful.
    Mr. Castro. And my last comment, and the reason I pose that 
question is because as we try to help them figure this out, I 
think for them, if you are a relatively poor nation where the 
rule of law is not what it should be and there is incredible 
corruption, and you have got people who are not making much 
money, very poor who are basically tempted to go into the drug 
trade, or be part of the drug trade, and there is an incredible 
demand right up north for those drugs, the challenge of rooting 
that out is gigantic. I yield back.
    Chairman Royce. Mr. Garrett, Tom Garrett, Virginia.
    Mr. Garrett. Thank you, Mr. Chairman, and thanks to the 
witnesses. I want to ask a series of very brief questions 
because I have a finite amount of time. I want to start with 
your understanding of the nature of the hearing today. The 
hearing that I was briefed on was entitled, ``Advancing U.S. 
Interests in the Western Hemisphere.'' Is that your 
understanding, as well?
    Ambassador Merten. That is my understanding.
    Mr. Garrett. And you all are from the U.S. Department of 
State, correct?
    Ambassador Merten. [No verbal response.]
    Mr. Garrett. And yet it seems about half the room is 
focused primarily almost exclusively on separations at the 
border. Is that correct?
    Ambassador Merten. We have got a lot of questions on that.
    Mr. Garrett. A lot of questions on that. And so, in the 
Department of State, do you all have oversight of HHS?
    Ambassador Merten. We do not.
    Mr. Garrett. Okay. Do you have oversight of DHS?
    Ambassador Merten. We do not.
    Mr. Garrett. How about USCIS?
    Ambassador Merten. No.
    Mr. Garrett. How about USCBP?
    Ambassador Merten. We do not.
    Mr. Garrett. How about Customs and Border Patrol--I'm 
sorry, how about ICE?
    Ambassador Merten. We do not.
    Mr. Garrett. So none of those are within your purview and 
yet, you have ``gotten a lot of questions on that subject 
matter.'' It is amazing to me how well some people talk off of 
talking points. In fact, right now, the number of people under 
the age of 5 who we think are separated from their families is 
just over 100, and yet quite candidly, just off of the 
preplanned talking points, we have covered about 14 percent of 
their cases in this committee hearing today. That is amazing.
    But what we have covered zero percent of, and pardon me 
while I go on a little bit of a discourse here, are the roughly 
4,000 Americans killed every year by unlicensed drivers who are 
here illegally. In other words, mathematically speaking, and we 
can't quantify these numbers because while we know about 13 
percent of all highway fatalities nationally are caused by 
people who are here illegally, we don't quantify fatalities 
specifically by immigration status, however, what we do know is 
in the 10 States where you are licensed to drive, regardless of 
your legal status, Maryland, California, et cetera, the number 
of highway deaths caused by people here illegally is closer to 
14.5 percent.
    And so I guess if we looked at the numbers and we compared 
the number of people who are under the age of 5 who we think 
are currently separated from their families, there would be 
about 40 Americans permanently separated from their families 
every single year for every one of them, but nobody has talked 
about that. And you all from the State Department and again, my 
condolences and gratefulness for you being here, but we have 
just determined, and I wish that I had gone earlier in the 
hearing because maybe we could have saved some time, that you 
are not responsible for HHS, DHS, USCIS, USCBP or ICE, which a 
lot of my friends across the aisle seem to want to abolish.
    So I apologize vicariously for the waste of your time, and 
I want to cover another thing real quickly that might be 
further within your purview. My good and distinguished 
colleagues and friends across the aisle to include Mr. Meeks, 
Mr. Keating, Mr. Engel, Mr. Sherman, Ms. Bass, and Ms. Frankel 
all have talked about horrific occurrences of gang violence in 
Honduras and Guatemala and El Salvador and Mexico, and it 
really gives me pause because I don't think that everyone in 
these countries are violent gang members, do you all, based on 
your experience? The Northern Triangle has lots of good people, 
right? They are not all gang members, right?
    Ambassador Merten. Of course.
    Mr. Garrett. And yet, we have heard horrible stories, in 
fact, we heard about Jose and Brian, whose mom was raped and 
murdered, and they came to this country because they were 
afraid, and I quote, ``the same thing might happen to them.'' 
But all people in those countries, they are not bad people, 
right?
    Ambassador Merten. [No verbal response.]
    Mr. Garrett. There are some gang members in those 
countries, right? And some of the people who are there are good 
people, right? Likewise, what we haven't heard of is that any 
gang members might ever leave those countries and come here. 
Now I understand it is somewhat beyond the scope and purview of 
the responsibilities of the Department of State, but do we have 
reason to believe that some of the people who might come into 
this country illegally could also be gang members? Could that 
be? I mean, mathematically speaking, just give me a wild guess.
    Ambassador Merten. I mean, I don't think--certainly, we at 
the State Department don't know.
    Mr. Garrett. Do you think it is possible? I mean, you have 
risen to the level of Ambassador. I am just asking you to 
posit.
    Ambassador Merten. I mean, in the realm of possibility, a 
lot of things are possible.
    Mr. Garrett. Right. Okay. And we have heard that a wall is 
not the solution, but just like a door being closed and locked 
might prevent someone from coming in a room, but doesn't always 
prevent someone from coming in a room, it might also be part of 
a solution while it is not panacea.
    So I continue that it is remarkable to see this concern for 
these just over 100 people under the age of 5, but not within 
the purview of the Department of State, nor the scope of 
identifying and addressing, let me see, U.S. interests in the 
Western Hemisphere. What is it that you would like to have been 
asked about today very quickly that you haven't been asked 
about because nobody in this room seems to want to talk about 
the subject matter and why you are here, Mr. Merten, 
Ambassador.
    Ambassador Merten. Sir, I think the questions we have got 
today are relevant to----
    Mr. Garrett. What is it that you would have like to have 
been asked about, what question would you like me to ask you?
    Ambassador Merten. Well, I would like you to ask me about 
the situation in Haiti, that I know reasonably well.
    Mr. Garrett. Outstanding. I have got 20 seconds. Please go 
over the situation in Haiti, and I apologize for having been 
distracted there. People are running for election. They have 
got goals here, things they want to do.
    Ambassador Merten. Sure. Very quickly, we are very 
disturbed by the recent unrest in Haiti. We are happy to see 
that the Haitian police and the Haitian Government have been 
able to reclaim control of the streets. We hope that the 
Haitian Government continues to work to pacify the situation, 
the political situation in the country. And in Haiti, we really 
see that the answer to why people are out on the streets upset 
rioting is because there is a lack of economic opportunity. And 
this is something we drive home with them at every possible 
opportunity, they need to attract investors who want to come to 
Haiti, and there are investors who want to come to Haiti, and I 
will leave it there.
    Mr. Garrett. Thank you so much, Ambassador. Thank you, Mr. 
Chairman. I yield back.
    Chairman Royce. We appreciate the State Department. Myself 
and another colleague here was on the phone over the weekend 
with the situation room there dealing with some of our 
constituents who were in harm's way in Haiti, and we appreciate 
the State Department's efforts to get that resolved. And we 
also, Ambassador, appreciate very much your expertise in Haiti 
and all the time you spent there.
    We are going to go to Robin Kelly of Illinois.
    Ms. Kelly. Thank you, Mr. Chair, and I hope you don't find 
my question a waste of time, but thank you for being here, and 
I would just say there is a lot of things--a lot of ways people 
get killed that we don't talk about here, like gun violence 
prevention. I just had to say that.
    Thank you, Mr. Chairman, I think it is important as we hold 
these hearings to remember the young families who are escaping 
violence in Latin America and traveling to the land of 
opportunity. A young 14-year old girl from El Salvador 
identified by her initials, VFB, arrived in the United States 
in May with her mother fleeing violence after her stepfather 
was murdered in a church. The two of them fled to save their 
lives.
    At the time of their arrival, our government announced the 
implementation of a zero tolerance policy. As we watched the 
consequences of this policy unfold, we saw thousands of 
children, as we have talked about, being separated from their 
parents, and she being one of them. Believing that she was 
being taken to give a bath, VFB was instead being lured away 
from her mom, not aware that she would not see her mom again.
    After being transferred to a shelter in Connecticut, the 
girl's mother remained detained in Encino, Texas. Finally, 
after 39 days, the young lady could hear the comfort of her 
mother's voice when she was finally allowed a 10-minute phone 
call. And now in July, VFB and her mother are still separated. 
We must get to the root problems that are causing increased 
migration with families giving up everything for the chance of 
a better life, just like you talked about what we need to do in 
Haiti. The United States must do more to push for change on the 
ground in these countries. That is why I was so disappointed by 
the State Department's decision last year surrounding the 
Honduran election.
    In November, the State Department chose to certify 
Honduras' conditional funding, meaning you provided the 
Honduran Government with direct U.S. funding just days after a 
disputed election with the Organization of American State 
Secretary General Luis Almagro eventually concluded was 
characterized by irregularities and deficiencies with very low 
technical quality and lacking integrity. President Hernandez 
said he would move forward with electoral reform, yet he has 
done very little to date. In the past, he has also said he 
would remove the military police on the streets, yet there is 
still no timeline to do so.
    What is the State Department doing to pressure the Honduran 
Government to make electoral reforms and to take the military 
police off the streets? And also, what leverage do you have 
given how quickly you certified the Honduran Government after 
its disputed election? Thank you.
    Ambassador Merten. On the Honduran certification, my 
understanding is that that is a process that takes some time to 
do. I know we do certifications for Haiti and other countries. 
The determination was made in our--in the building in the State 
Department, ultimately by the Secretary of State, that they had 
met the criteria for certification, and that is why we 
recommended that.
    Ms. Kelly. Can you share some of the criteria that they----
    Ambassador Merten. I can't speak to the exact criteria for 
Honduras. That is not an area I work with on a daily or weekly 
basis. Regarding the idea of military servicing as police, it 
is unfortunate, like you see in many countries in the 
hemisphere, where military perform police functions. In 
general, our view is that is not a good thing, that there is a 
role for military and there is role for police, and we believe 
that those two should be separated.
    Ms. Kelly. And do you know if there is a timeline to do 
something about the police on--or the military on the street?
    Ambassador Merten. I don't know that there is a timeline 
no, ma'am, sorry.
    Ms. Kelly. And also, is there a general certification 
criteria, or is this something different for every----
    Ambassador Merten. My understanding is that for every 
country there are--and maybe this is something you can speak 
to--there are different criteria that are established, usually 
by the appropriators.
    Ms. Lynch. Yes, and we can get the specific criteria for 
you, if you would like.
    Ms. Kelly. I would appreciate that.
    Ms. Lynch. Absolutely.
    Ms. Kelly. Believe it or not, I yield back early.
    Chairman Royce. Thank you. We go to Paul Cook from 
California.
    Mr. Cook. Thank you, Mr. Chairman. I want to apologize for 
being late to the committee. I had a markup in Natural 
Resources. I want to thank you for being here today.
    Ms. Lynch, it is good to see you again. Our committee had 
nine members that went to the Summit of the Americas, and you 
spent a lot of time with us, and I am really, really impressed 
with what you are doing in many of the countries, and also saw 
some of your work in Egypt. So thank you for being here.
    My questions, Mr. Ambassador, I did want to address the 
Peruvian agrarian bonds, and this is something that has been 
bouncing around for a while. It affects San Bernardino County. 
This is to resolve the claims of many of my constituents. These 
are land bonds as they are known in the--they have been 
floating around for long years, and directly affected many of 
the pension plans in San Bernardino.
    The role of the government right now is they don't want to 
address it. They think that this happened 50 years ago, and 
that this was under a different regime, and they are not--they 
just don't want to address it. And I keep pushing it on them, 
and I get some pushback. So I am hoping you can kind of help me 
out with that. Are you familiar with it at all?
    Ambassador Merten. I am generally familiar with the case, 
yes, not with the specifics, however.
    Mr. Cook. Okay. The other thing I wanted to talk about, 
when we were down there, we had a weekend trip, as I said it 
was a great codel. It was short-lived. It was only a weekend 
basically, a Friday and came back on a Monday, and we met with 
21 countries. And I got to be honest with you, I came back just 
exhausted, but never learned so much in my life.
    But one of the things on the tail end of it, we met with 
nine of the Caribbean countries. And you hear the same theme 
over and over and over again, that the United States has kind 
of forgotten or ignored the Western Hemisphere, same thing. And 
even more so, in the Caribbean, and even more so with some of 
these smaller countries. And it is no wonder that some of the 
very small ones, and not just Caribbean countries, they are 
susceptible to some of the economic manipulations that the 
Venezuelan Government is making in returns for rebates on oil, 
and this is going to be a continuing problem. And you have to 
do the math in regards to the OAS. Each one of these countries 
has one vote, same as the United States. You add them together, 
and whatever changes you want to do in the OAS that is going to 
affect it, it ain't gonna happen. At least, I am not very good 
at math. I am not very good in a lot of things, but something 
we have got to talk to these countries in the Caribbean.
    One of the big concerns, hurricanes coming. Every year, we 
are going to have a hurricane, we are going to have one, two, 
three, four, five, and here we go again trying to get aid down 
there, whether it is--Puerto Rico isn't a country, it is a 
territory, as you know.
    But here we go again. Now I am from the military. I know 
how successful prepositioning equipment is, and we had talked 
about this prepositioning many of these supplies, have command 
post exercises where we go through the drill when it happens, 
whether it is in our own southern states or in the Caribbean, 
so we don't start from scratch like this because we know it is 
going to happen. So I would hope that we agendasize that, and I 
think my staff has kind of mentioned that to you, that this was 
a big, big issue with our committee, and just don't--we are 
going to keep pushing that at all.
    The other thing I wanted to just to ask you in terms of--I 
know that Secretary Pompeo is interested in Mexico and 
everything else, but do you get that same feeling that, Hey, we 
got to--we have to start paying more and more attention because 
there is a lot of countries down there. We have got China, we 
got Iran. Ambassador, I didn't mean to talk so much, but if you 
can kind of address that absence of attention to the area.
    Ambassador Merten. Yes, thanks for your comment and 
question, sir. I would respectfully disagree that we have been 
neglectful of our neighbors in the hemisphere. We have a whole 
bureau of people that work on a daily basis with this. USAID 
has large bureau that works with them on a daily basis. We have 
had the Vice-President who has traveled to the region several 
times already. We have, regarding the Caribbean, H.R. 4939, 
which has been the guiding light.
    Mr. Cook. I don't mean to cut you off, but the chairman is 
going cut me off anyway. The only thing I want to say is 
perception is reality.
    Ambassador Merten. Understood.
    Mr. Cook. And if you poll those countries down there, their 
perception is they have been ignored, and that is all I am 
going to say there, and I yield back.
    Chairman Royce. Thank you, Congressman Cook. We go to Dina 
Titus of Nevada.
    Ms. Titus. Thank you, Mr. Chairman. I am going to have to 
agree with Mr. Cook. I appreciate your optimism, Mr. Merten. 
You have said it in your opening statement, and now that we 
have these great bonds and that nothing is more important than 
our relationship down there, but actually, history tells a very 
different story. Our relations with Latin America over the 
years, at best, have been benign neglect, and at worst have 
been shoring up either with troops or resources, governments 
that practice state terrorism. Now we are ripping children from 
the arms of their parents, and current policy is so bad and 
relations so abominable that the OAS recently unanimously 
passed a resolution condemning our behavior. So I don't really 
think that is anything to brag about.
    I would go back to something, though, that was discussed 
hours ago, you brought it up, Ms. Lynch, that we have a policy 
that tends toward self-sufficiency, but there are other players 
in the region who have a policy that is more about dependency. 
This worries me because I have seen it all over the world. We 
have seen it in Southeast Asia, we see it in Africa. We see it 
in Eastern Europe. The U.S. pulls back. We create a power 
vacuum. In moves Russia. In moves China. And now, certainly, 
there are examples of that in Latin America. We heard about the 
tanks that Russia is selling in Latin America. We know that 
they are increasingly meddling politically and economically 
through propaganda. I wonder, have you asked the President if 
he is going to bring this up with Mr. Putin when he meets with 
him next week, that this could be causing a problem, the tanks 
and the other activities? They have supplied global navigation 
satellite system in Managua. They have got a joint 
counternarcotics center there. I mean, they are moving in when 
we are not doing much.
    Also, let's be specific about China. Latin America is now 
their second largest destination for Chinese investment, and 
they are the largest trading partner for Argentina Brazil, 
Chile, and Peru, so this is not something minor. They are 
putting $2 billion into the ports in Peru as part of a $10 
billion Chinese investment in energy, mining, and shipping, and 
telecommunications. So even if it is creating dependency when 
they are offering those kind of things, it is kind of hard for 
us to compete with it or counter it with the policy as you 
described, Mr. Merten, of telling them it is not a good idea to 
do this in the long run. Well, they are interested in the short 
run.
    So I would say, in addition to having talked to the 
President about Russia's involvement, how can we possibly 
compete when we have a diminishing budget at USAID, they want 
to cut that back all the time. It is already very small. We 
have got kind of a demoralized, understaffed State Department. 
You have got a President who insults our allies. You have got a 
policy of zero tolerance at the border. How can we compete with 
the competition down there to build those strong relations that 
we need?
    Ambassador Merten. Well, I do think we do have strong 
relations, and we have a history of engagement, we have a 
history of shared values with all the countries in the 
hemisphere, and particularly, our close neighbors Canada, 
Mexico, Caribbean countries. We have diaspora communities here 
in this country who contribute to our national well-being.
    So I think that we have a lot to offer. We also have aside 
from all the good things that our colleagues at USAID are doing 
throughout the hemisphere and our colleagues from the state INL 
are doing, we also have a very vibrant private sector, and I 
think that while our private sector does well exporting and 
trading with Latin America, we also have a lot of investment 
there. And I think that is a good vector of bringing economic 
opportunity, and hopefully, hope to these places.
    Ms. Titus. Well, I agree with that, and I think the USAID 
does a wonderful job. I think they are one of the best 
agencies. We get more from them by giving them less than any 
agency I can think of, but as far as the commercial aspect, we 
are not even being very helpful there because the one party in 
this Congress doesn't even support the Export-Import Bank, 
which would help with some of the investment there. So I just--
on what front are we really being successful? And I know you 
have to answer that in a positive way, and I appreciate that, 
and I would like to be optimistic, too, but I think we need to 
be realistic, as well. Thank you, Mr. Chairman. I yield back.
    Chairman Royce. Thank you. We go to Mr. Chris Smith of New 
Jersey.
    Mr. Smith. Thank you very much, Mr. Chairman. Let me just 
make clear for the record that after being unjustly jailed for 
3 years, Igor Bitkov and his wife Irina, who spent 3 months 
unjustly jailed, and their daughter Anastasia, another 3 months 
for being unjustly jailed, Igor got out on bail, but they were 
told they are not free. They are under house arrest. I just 
confirmed it again within the last couple of minutes with their 
attorney that they are under house arrest. Significantly, on 
May 23--and I mentioned earlier before in terms of the 
chronology--2 days before my hearing, which was in this room, 
the court ruled and allowed them out of jail. That was the 
constitutional court.
    That wasn't enough for CICIG however. On May 23, CICIG went 
back to the constitutional court--yet another action against 
the Bitkovs.
    Chairman Royce. This would be the third time.
    Mr. Smith. Yes. And so there is a pattern, I think, here. 
On June 21, the constitutional court, in contrast to its 
previous decisions, exonerated the Bitkovs under the Palermo 
Protocol. I remind my colleagues that under Palermo--I mean, we 
are talking about migrants, these are asylum seekers, a family 
that was escaping the impunity of Vladimir Putin and his 
cronies. Article 5 makes clear that migrants shall not become 
liable to criminal prosecution under the protocol for the fact 
of having been the object of conduct set forth in Article 6 of 
the protocol. And then it is clearly pointed out that producing 
a fraudulent travel or identity document procuring or providing 
or possessing such a document. So the Palermo Protocol couldn't 
be clearer, and anyone who doubts that they were escaping a 
tyrannical action against them just look at the record, it 
couldn't be more clear.
    So the constitutional court now has allowed a CICIG action 
because the Bitkovs got false drivers' licenses and credit 
cards. Again, they wanted to change their identity. We have 
witness protection in this country when someone wants to change 
their identity in order to escape the mob or the Mafia, in this 
case the Russian Mafia, and now they are bringing another 
action. And what is it--I want to ask with respect, what is the 
driving force behind CICIG after first being part of an action 
that got 19 years for Igor, 14 years in prison for his wife, 
and 14 years in prison for their daughter? I mean, that is what 
the judge found. That is what the court found. What is the 
driving obsession here? When you say there has been an 
investigation and you found no evidence, how deep was that 
investigation? How much was looked into the Russian connection 
here?
    We know for a fact that thousands of businesswomen and men 
in Russia routinely have their businesses taken away from them. 
I cut my eye teeth on Russian human rights issues in 1982 in my 
first term on a trip to the Soviet Union on behalf of Soviet 
Refusniks--Jews who wanted to emigrate--including people like 
Yuli Koshirovsky, great people, who then had all these false 
charges brought against them and often were sent to psychiatric 
prisons, or places like Perm Camp 35. I actually visited Perm 
Camp 35 in the Ural Mountains just a few years later, and heard 
horror tales of men who had been taken and tortured by the 
Russians, in that case the Soviets, but now we have a 
continuation of that, and again, the Russians went looking for 
the Bitkovs, took them several years, and then they found them, 
and had a willing partner called CICIG to join in the efforts. 
It is all laid out in nauseating detail unfortunately, and yet, 
there are people who suggest that this is an overreach on our 
part trying to raise these issues.
    And I said it before, Bill Browder--he is the subject of 
unrelenting attacks by the Russian Government, unrelenting. I 
was in a bilateral at the OSCE Parliamentary Assembly as head 
of the United States delegation these last 5 days in Germany, 
and at that meeting that was chaired by Pyotr Tolstoy from the 
Russian side from the Duma was some of the people who had been 
held to account under the Magnitsky Act in terms of their 
wrongdoing. They were sitting right at the table and took great 
umbrage of the Magnitsky Act. They don't like it. We believe in 
sanctions. We believe in personalizing them as a way of really 
trying to inhibit bad behavior and hold to account. But now we 
have a situation where a family, who is at grave risk in my 
opinion--their physical safety is my overriding concern. I want 
to keep them out of prison because I think they have done no 
wrong. They have done what any of us would do for our families 
if a gangster group came after us, and certainly changing a 
passport to a new name, certainly having a driver's license 
with a different name, and now CICIG is going after them 
because of their driver's license. It begs credulity. It is 
beyond the pale as to why. Can you tell us why?
    Ambassador Merten. Sir, I can't speak to the 
particularities of how CICIG works internally. I will say in 
terms of beyond what I told you about the Bitkovs before, our 
Embassy has engaged with the Guatemalan Government. We have got 
assurances from them that they will not send the Bitkovs back 
to Russia.
    Chairman Royce. If I could interrupt, would the gentleman 
yield?
    Mr. Smith. There is no extradition.
    Chairman Royce. How about the son? Since the Russian banks 
are now asking that the young son, who is maybe under 3 years 
of age, be returned from Guatemala to Russia, do you have 
assurances of that, too?
    Ambassador Merten. I hate to admit this, but you have 
exhausted my expertise in this subject, and rather than mislead 
you, I would rather get back to you.
    Chairman Royce. If the gentleman would yield, Ambassador, I 
would suggest in a situation where you are looking at, in 
sentences of 17 years, 14 years for the wife, 14 years for the 
daughter, who had been, after the bank tried to--after certain 
individuals in the bank tried to take control of the company, 
had been abducted and raped in St. Petersburg for 3 days, for 
her to get 14 years, for the younger son to be in a situation 
where the Russian Government is trying to have him returned to 
Russia, and given the past pattern of behavior, you would have 
to ask yourself when these sentences are longer than sentences 
for drug trafficking, for murder, for even terrorism in 
country, there is something a little unusual about the 
particulars of this case, and that is why, when I said earlier, 
we are going to work with U.S. U.N. on investigations here in 
terms of this set of circumstances, it is, I think, incumbent 
upon all of us to dig a little deeper and get a little bit more 
understanding of this case.
    And I would ask you to do that and then get back in touch 
with Chairman Smith and myself and other members of this 
committee that are interested because at the end of the day, 
our goal is to have CICIG work effectively. They are in an 
environment where they are taking on corruption. But the one 
thing you and I know is that the Russians try to influence the 
outcome in any case where they go after anyone who tries to 
flee their government's control. And if you ask yourself how 
far will they go, apparently poison by radiation is not out of 
bounds. We know of two cases where that was done in the U.K.
    So when you have an arm of the state, a state bank bringing 
a case in Guatemala after bringing a case where they had 
previously--anyway, I have exhausted our time, but I think 
Chairman Smith made the point, and I would just reiterate it.
    At the end of the day, we want CICIG to be effective. For 
that to happen, we need the reforms in place, but again--and I 
see Mr. Cook here. Were you seeking time?
    Mr. Cook. I came back in because we are planning a trip, as 
part of my committee, to Guatemala, and obviously this is a 
huge, huge issue. We are all concerned about it. I know Mrs. 
Torres, it is something that we are concerned and I share the 
chairman's feelings about Russia and their history, and, so, 
this is something that is not going to go away and obviously 
this is going to be our top agenda when we go down there. Thank 
you.
    Mr. Smith. If I can just conclude, Mr. Chairman, and I 
thank you for----
    Chairman Royce. I yield back.
    Mr. Smith [continuing]. Your comments. To the Bitkovs, they 
live with the Sword of Damocles hanging over their head every 
single day. I mean, they have got very poor treatment in 
prison. They had a huge, huge SWAT-like team take them to 
prison in the first place, totally beyond all reason. And what 
that has done--especially to Anastasia, who was abducted, and 
this is the way the Russian oligarchy, the Russian leadership 
works. They go after businessmen and women who are successful 
to fleece them, and if you don't play ball, they set examples 
for certain people. To think that CICIG has anything to do with 
that absolutely undermines their mandate. Who doesn't want to 
get rid of corruption? Every single one of us. But if personnel 
is policy, which I think it is, and there are any corrupt 
people within the organization called CICIG, that needs to be 
weeded out and beyond that, not just weeded out--anyone who is 
complicit in any of this, that is why I have asked very 
specific questions about collusion, they need to be prosecuted. 
And no games. I thank you.
    Chairman Royce. Okay. With that we thank the witnesses for 
being with us today, and we stand adjourned.
    [Whereupon, at 12:40 p.m., the committee was adjourned.]

 
                            A P P E N D I X

 
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
